<html>
<title> - IRAQ: WINNING HEARTS AND MINDS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




                     IRAQ: WINNING HEARTS AND MINDS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   EMERGING THREATS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 15, 2004

                               __________

                           Serial No. 108-233

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
96-993                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001
                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          BETTY McCOLLUM, Minnesota
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

 Subcommittee on National Security, Emerging Threats and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman

MICHAEL R. TURNER, Ohio
DAN BURTON, Indiana                  DENNIS J. KUCINICH, Ohio
STEVEN C. LaTOURETTE, Ohio           TOM LANTOS, California
RON LEWIS, Kentucky                  BERNARD SANDERS, Vermont
TODD RUSSELL PLATTS, Pennsylvania    STEPHEN F. LYNCH, Massachusetts
ADAM H. PUTNAM, Florida              CAROLYN B. MALONEY, New York
EDWARD L. SCHROCK, Virginia          LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. ``DUTCH'' RUPPERSBERGER, 
TIM MURPHY, Pennsylvania                 Maryland
KATHERINE HARRIS, Florida            JOHN F. TIERNEY, Massachusetts
                                     DIANE E. WATSON, California

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
               R. Nicolas Palarino, Senior Policy Analyst
                        Robert A. Briggs, Clerk
             Andrew Su, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 15, 2004....................................     1
Statement of:
    Al-Rahim, Rend, Iraqi representative to the United States....    17
    Schlicher, Ambassador Ronald L., Deputy Assistant Secretary, 
      Bureau of Near Eastern Affairs/Iraq, Department of State; 
      Peter Rodman, Assistant Secretary of Defense, International 
      Security Affairs, Office of Secretary of Defense; 
      Lieutenant General Walter L. Sharp, Director for Strategic 
      Plans and Policy, Joint Chiefs of Staff; Gordon West, 
      Senior Deputy Assistant Administrator, Bureau for Asia and 
      the Near East, U.S. Agency for International Development...    43
    Shehata, Samer S., Center for Contemporary Arab Studies, 
      Georgetown University; Richard Galen, former Director, 
      Strategic Media, Coalition Provisional Authority; and 
      Danielle Pletka, vice president, Foreign and Defense Policy 
      Studies, American Enterprise Institute.....................    84
Letters, statements, etc., submitted for the record by:
    Al-Rahim, Rend, Iraqi representative to the United States, 
      prepared statement of......................................    21
    Galen, Richard, former Director, Strategic Media, Coalition 
      Provisional Authority, prepared statement of...............   113
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................     7
    Pletka, Danielle, vice president, Foreign and Defense Policy 
      Studies, American Enterprise Institute, prepared statement 
      of.........................................................   125
    Rodman, Peter, Assistant Secretary of Defense, International 
      Security Affairs, Office of Secretary of Defense, prepared 
      statement of...............................................    54
    Schlicher, Ambassador Ronald L., Deputy Assistant Secretary, 
      Bureau of Near Eastern Affairs/Iraq, Department of State, 
      prepared statement of......................................    47
    Sharp, Lieutenant General Walter L., Director for Strategic 
      Plans and Policy, Joint Chiefs of Staff, prepared statement 
      of.........................................................    65
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3
    Shehata, Samer S., Center for Contemporary Arab Studies, 
      Georgetown University, prepared statement of...............    88
    West, Gordon, Senior Deputy Assistant Administrator, Bureau 
      for Asia and the Near East, U.S. Agency for International 
      Development, prepared statement of.........................    71

 
                     IRAQ: WINNING HEARTS AND MINDS

                              ----------                              


                         TUESDAY, JUNE 15, 2004

                  House of Representatives,
Subcommittee on National Security, Emerging Threats 
                       and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2247, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Turner, Platts, Kucinich, 
and Maloney.
    Staff present: Lawrence Halloran, staff director and 
counsel; R. Nicholas Palarino, senior policy advisor; Robert 
Briggs, clerk; Richard Lundberg, detailee; Andrew Su, minority 
professional staff member; and Christopher Davis, minority 
investigator.
    Mr. Shays. A quorum being present, the Subcommittee on 
National Security, Emerging Threats and International Relations 
hearing entitled, ``Iraq: Winning Hearts and Minds'' is called 
to order.
    Almost 1 year after the capture of Saddam Hussein, the hard 
lessons of liberation are coming into sharper relief. For many 
Iraqis, euphoria over the fall of the tyrant has decayed into 
disappointment over the pace of reconstruction. Eagerness to 
embrace long suffering suppressed freedoms has become 
impatience over half-measures and interim organizations that 
look and act more Western than Iraqi. Welcomed liberators are 
now viewed in some quarters as resented occupiers. Why?
    In the course of five visits to post-Saddam Iraq, my staff 
and I asked the same questions. Four of those visits were 
sponsored by nongovernment organizations [NGO's], allowing us 
to travel outside the military umbrella that can sometimes 
shield Members of Congress from useful information not included 
in the official briefing slides. Across Iraq, we saw families 
and communities celebrating weddings, building schools, and 
trying to weave the fabric of civil society from disparate, 
often conflicting, ethnic, religious, and political threats. We 
also saw a rigid, centralized Coalition Provisional Authority 
[CPA] at times succumbing to hubris and condescension in 
dealing with the sovereign people it was created to serve. Many 
Iraqis noticed.
    In that hostile terrain, our accomplishments whither 
quickly while our errors are grotesquely magnified. Conveying 
American good intentions through the cacophony of competing 
tribal, religious, and factional voices requires patience and a 
cultural sensitivity that were apparently not part of the 
original war plan. So today we ask: What have we learned about 
how a newly sovereign Iraq will perceive U.S. words and 
actions? How do we reach the Iraqi people?
    Our previous oversight of post-war humanitarian assistance 
and public diplomacy in Iraq pointed to the need for clarity, 
persistence, and humility in that unforgiving, volatile part of 
the world. The perceived dissonance between American rhetoric 
and actions breeds mistrust at home and in Iraq about why we 
are there and how long we will stay. The same lack of strategic 
clarity causes others to doubt our will to see the mission 
through. And when we forget why we are there, when we forget it 
is their revolution not ours, we allow ourselves to be 
portrayed as arrogant agents of empire rather than as trustees 
of noble ideals.
    Today we welcome three panels of most distinguished 
witnesses who bring first-hand experience and invaluable 
expertise to our continuing oversight of U.S. efforts to reach 
the hearts and minds of the Iraqi people. We asked for their 
insights and analyses of U.S. efforts to secure, stabilize, 
rebuild, and foster civil discourse and democracy in post-
Saddam Iraq.
    We very much appreciate the participation of Ms. Rend Al-
Rahim, the Iraqi Representative to the United States. Thank you 
for being here. She brings a unique perspective to these 
important issues. We look forward to her testimony and that of 
all of our witnesses.
    I will just say before recognizing the ranking member, it 
is our custom to swear in all witnesses. But we do make rare 
exceptions. In one instance I chickened out, for example, and 
could not bring myself to ask Senator Byrd to take the oath. 
But in other instances and in deference to protocol, we also do 
not administer the oath to international diplomats and 
international civil servants who agree to provide information 
to this subcommittee. So we will not be swearing in our first 
witness. But I cannot tell you how grateful we are that you are 
here.
    At this time, the Chair would recognize Mr. Kucinich, the 
ranking member of this subcommittee. Thank you, Mr. Kucinich.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T6993.001
    
    [GRAPHIC] [TIFF OMITTED] T6993.002
    
    Mr. Kucinich. Thank you very much, Chairman Shays, for 
holding this hearing.
    We are familiar with the fact that the Vice President 
predicted back in March 2003 that U.S. forces would be greeted 
by Iraqi citizens as their liberators. Instead, recent polls of 
the Iraqi people show that 80 percent have negative views of 
the United States, and that a majority of Iraqi people want 
U.S. military forces to leave immediately. That this data was 
gathered prior to the prison abuse scandal and the escalation 
of violence against Coalition forces in recent weeks is 
instructive.
    I believe our military presence in Iraq was, is, and will 
continue to be counterproductive, and it endangers the security 
of Americans both here and abroad by uniting those and 
strengthening those who oppose us. Since the end of major 
combat operations was declared on May 1, 2003, the lives of 
nearly 700 additional U.S. soldiers have been lost in Iraq, 
many of them victims of homemade bombs, which are strategically 
placed by the Iraqi roadside to inflict harm on our troops. And 
at this moment, I believe we have over 830 who have lost their 
lives in this conflict, thousands have been injured, and over 
10,000 innocent Iraqis have lost their lives.
    It is clear that the United States has underestimated the 
level of resistance of the Iraqis. The U.S. Government has 
erred in the fixed idea that only Baathists, Al Qaeda, and 
criminal groups oppose the U.S. occupation.
    Mr. Chairman, without objection, I would like to insert in 
the record an article from the June 6, 2004 edition of the 
Washington Post. It is entitled, ``The Military: Losing Hearts 
and Minds?''
    Mr. Shays. Without objection, so ordered.
    Mr. Kucinich. It is actually written by an Army Reserve 
Captain Oscar Estrada, who is serving as a civil affairs team 
leader in Iraq. Captain Estrada writes that the good efforts of 
American troops are having the opposite effects. He finds that 
paying townspeople a dollar to collect a bag of trash is 
demeaning to Iraqis, that providing medical care leads to 
disappointment and resentment when there is no medicine to heal 
the sick, and that buildings and cars are needlessly damaged as 
soldiers in Humvees speed through Iraqi cities shooting in all 
directions.
    I want to say that while I take strong exception to our 
presence in Iraq, the men and women who serve this country and 
who love this country need to be appreciated. But at the same 
time, it is essential that we point out any of the shortcomings 
that I believe is the direct result of failed policies.
    The bombing of the wedding in Western Iraq near the Syrian 
border killed over 40 people, including women and children. The 
U.S.' subsequent denial of the incident only inflamed tensions. 
The indiscriminate use of force that the United States used in 
Fallujah to target the insurgents killed over 800 innocent 
civilians, creating a further uproar from people.
    This is the real face of the U.S. occupation seen everyday 
by the Iraqi people. When combined with the egregious abuses 
our military leaders apparently condoned at the prison, it is 
no wonder that Iraqi frustration and resistance is mounting. 
The question for us now is what, if anything, we can do to earn 
the trust of Iraqis and regain moral standing in the world.
    Take, for instance, the question of how the United States 
should handle the prison torture scandal. What level of 
accountability of high ranking officials is required to 
demonstrate U.S. contrition? And I am not only talking about 
military officials here, Mr. Chairman. Is it enough, as one of 
our colleagues has said, that a few low ranking ``bad apples'' 
are dishonorably discharged? Or will that be seen in Iraq as 
scapegoating the responsibility of higher up officials who 
authored the policy that resulted in the prison scandal? Does 
that responsibility go to the White House, where the White 
House counsel penned a memo providing a legal rationale for 
freeing the President from the international obligation of 
honoring the rights of prisoners?
    I think that this hearing is important because it gives 
this Congress an opportunity to discuss some of the things that 
the chairman raised in his opening statement. We need to see 
where this whole effort is going, and we need to determine at 
some point, Mr. Chairman, whether it is the purview of this 
committee or not, at what time we are going to get out of Iraq 
and create international cooperation which will enable the U.S. 
troops to be brought home.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC] [TIFF OMITTED] T6993.003

[GRAPHIC] [TIFF OMITTED] T6993.004

[GRAPHIC] [TIFF OMITTED] T6993.005

[GRAPHIC] [TIFF OMITTED] T6993.006

[GRAPHIC] [TIFF OMITTED] T6993.007

[GRAPHIC] [TIFF OMITTED] T6993.008

[GRAPHIC] [TIFF OMITTED] T6993.009

[GRAPHIC] [TIFF OMITTED] T6993.010

[GRAPHIC] [TIFF OMITTED] T6993.011

    Mr. Shays. I thank the gentleman. At this time I recognize 
the vice chairman of the subcommittee, Mr. Turner. Welcome.
    Mr. Turner. Thank you, Mr. Chairman. Of course, we are all 
so appreciative of our chairman's leadership in the issue of 
this committee and national security and the issue of the 
global war on terror. Specifically in the area of Iraq, though, 
our chairman has travelled to Iraq many times and in ways not 
like most Members of Congress have gone; in ways where he has 
direct contact with the Iraqi people and places himself in a 
great deal of risk compared to many of the just fact-finding 
missions that even I attended. We know that from our chairman's 
efforts to make certain that he is in Iraq and on the ground 
and having contact with the Iraqi people in ways that most of 
us do not have the opportunity or have not been willing to take 
the risk, he brings with him a great deal of information and 
insight that we very much appreciate to this topic and to the 
committee.
    It is interesting, in listening to the issues of mistakes 
the United States has made or may have made, it is easy to 
criticize a policy by listing a number of mistakes. It is easy 
to criticize a policy by listing mistakes without taking the 
responsibility for what it would mean if there is inaction. 
Whenever I hear the United States criticized for what we have 
done and the mistakes that have been made, I always think back 
to when Tony Blair came before Congress to receive the 
Congressional Medal and he talked about the issue of the war on 
terror. He said that ``History would condemn us if we failed to 
take action on the war on terror. Along the way we may make 
mistakes, but they will forgive us for these mistakes as we 
rise to the occasion to make certain that this threat that we 
have for the civilized world is addressed.''
    One of the things that I think no one questions is that the 
U.S.' role and goal in Iraq is for a transition to democracy. 
It is important for us to have hearings like this and that the 
chairman's leadership in knowing how we should address this 
issue, in that we need to know: How is the issue of democracy 
being perceived in Iraq? How are we being perceived? How is the 
overall goal viewed? What support do we have of the Iraqi 
people? And how do we communicate. What are the ways that we 
are seeing our actions communicating a message that we do not 
want to have conveyed that might undermine our efforts?
    Our efforts in this hearing should not be to just list a 
litany of mistakes, but to embrace the goal and look at how we 
can, through greater information, make certain that we achieve 
it, both for us and the Iraqi people. Thank you, Mr. Chairman.
    Mr. Shays. I thank the gentleman very much. I would just 
want to say, since I have some real concerns about how we have 
done the rebuilding of Iraq, and the extent that we have been 
culturally sensitive, and so on, I strongly support our reasons 
for being there and am very grateful that we have brave men and 
women who have taken on this task. We just want to make sure 
that it ends in success.
    Representative Al-Rahim, thank you so much for being here. 
You, by your testimony, may have tremendous impact on the 
success of this mission and the ultimate transformation of 
power that happens in a few days. This is not an American 
revolution, it is an Iraqi revolution, and on June 30th that 
will be very clear. I am certain that Iraq will do certain 
things that we may not like. But guess what? It is your 
country.
    So with that, welcome. You have a statement that I would 
like you to feel you can give in its entirety. I would like you 
not to feel rushed, so that we have the benefit of what you 
would like to say. So I am going to encourage you to give your 
statement and not say that it will all be in the record and 
just summarize. My only concern is that as you look at me, I 
think we should move that water in front of you, get that 
microphone in front of you. Let's help out there, somebody. 
Thank you, Bob. Welcome.

STATEMENT OF REND AL-RAHIM, IRAQI REPRESENTATIVE TO THE UNITED 
                             STATES

    Ms. Al-Rahim. Mr. Chairman, thank you very much for 
inviting me to testify on this important subject. Having 
testified before, I have learned to make a summary of my 
statement. In any case, my full statement is rather long; it is 
eight pages of single space, and it would be really rather long 
to read it all. I have summarized it, but I would welcome any 
questions to clarify so that I can get into some issues in 
greater detail. So lets work on the summary.
    Thank you for inviting me to testify on this important 
issue, Mr. Chairman, Congressman. I would like to take this 
opportunity to thank the United States and the Coalition forces 
for bringing to Iraqis freedom from dictatorship and tyranny. 
Ending the murderous regime of Saddam Hussein was, indeed, a 
moral victory against evil and we should celebrate that 
victory. We should never have any doubts about the rightness of 
the removal of Saddam Hussein's regime, even by force.
    I also wish to express our deep appreciation for the 
sacrifices made by Americans, Coalition members, and hundreds 
of Iraqis over the past 14 months. We should honor their 
sacrifices and the memory of those who have fallen.
    Mr. Chairman, it is important to recognize that the picture 
is not all gloomy and dark in Iraq. And I want to make that 
statement first and foremost. Iraqis did, indeed, welcome the 
Coalition forces as liberators. There have been many successes, 
although many challenges also remain. To measure the magnitude 
of the achievements and the challenges, it is essential to bear 
in mind that the old regime destroyed Iraqi institutions, 
society, and the Iraqi economy for 35 long years. We have to 
rebuild the country from the ashes left to us by Saddam 
Hussein's regime.
    Let me list some of the achievements.
    First, the economy has made significant progress and there 
is thriving trade and entrepreneurship. Somebody called Baghdad 
a Boom Town a while ago. And from my own personal experience, I 
would concur with that.
    Salaries and the standard of living of Iraqis have risen 
dramatically.
    A free press is flourishing. Civil society institutions are 
being formed, and professional associations are, for the first 
time, free from the control of government.
    Political parties are taking their first steps and 
political debate in Iraq is open and lively.
    Ministries have resumed their services and are active in 
the reconstruction process of their own ministries.
    The Iraqi Governing Council in March adopted a Transitional 
Administrative Law, a sort of proto-interim constitution, with 
a Bill of Rights that is the most progressive in the Middle 
East. And I would want to add here that it is not just the 
outcome of this law that is significant, but the process that 
it entailed, which was a process of debate, of deliberation, of 
negotiation of true political horse trading, and of 
compromises. I was witness to some of those meetings resulted 
in the TAL, as we call it, and it was truly impressive the way 
that Iraqi politicians were able to debate.
    Since early June, there have been two noteworthy successes. 
First of all, a new, well-qualified Iraqi government has been 
formed, with the help of the United Nations, which will assume 
full sovereignty and authority on June 30th. And second, a 
Iraqi delegation went to New York for the very first time and 
took part actively in shaping a U.N. resolution on Iraq, and 
this resolution has been passed unanimously by the U.N. 
Security Council.
    These are all significant achievements in the space of 14 
months.
    At the same time we have faced, and continue to face, 
problems. Some of these problems arise from miscalculations in 
U.S. policy and failures in implementation. And I strongly feel 
that as representative of a country that looks forward to a 
long and lasting friendship with the United States, it is 
important for all of us to take stock and measure the successes 
as well as the failures. We ought to be able to talk to each 
other about these things in order to move forward.
    I would like to draw attention here to some reports written 
by Iraqis prior to March 2003; that is, prior to military 
action in Iraq. The first one is a report that was written by a 
group of Iraqis in November 2002, under the auspices of the 
State Department's project called Future of Iraq Project. The 
report is entitled, ``Transition to Democracy,'' in which 
Iraqis wrote about how they conceived that transition and their 
recommendations for policies during the transition period. I 
would also like to refer to my own testimony in the Senate 
Foreign Relations Committee on August 2002. And finally, I 
would like to refer to a report I wrote when I was still 
executive director of the Iraq Foundation. I wrote it in 
September 2003, after 5 months in Baghdad, and the report is 
entitled, ``Iraq Democracy Report No. 1,'' with the hope that I 
would do a No. 2 and 3. But this job intervened.
    One of the important issues that we noticed in Iraq is that 
there appeared to be multiple conflicting policies within the 
CPA, causing confusion and frequent reversals. This confusion 
within the CPA became infectious and affected the confidence of 
the Iraqi population. It was visible through the U-turns, the 
reversals, and Iraqis felt destabilized.
    The first and, so to speak, the ``Mother'' of all policy 
errors is the declared policy of occupation. Many Iraqis had 
urged that the Coalition should be a liberator and a partner of 
Iraqis, not an occupying power. It is humiliating to Iraqis. It 
goes against their sense of dignity and patriotism. There are 
no nice words by which to talk about occupation. Moreover, 
occupation has proven to be practically unworkable.
    With the collapse of the old regime, the political and 
security infrastructure of the country were dismantled and the 
logic of occupation allowed the ensuing political and security 
vacuum to persist. This was a mistake that still haunts us.
    With occupation came the suppression of Iraqi sovereignty. 
Another policy decision that Iraqis warned against before 
military action. Sovereignty, like occupation, is an emotional 
issue that touches on people's dignity and nationhood. But 
there is also a very practical issue to the suppression of 
sovereignty. The Coalition did not have the resources, the 
understanding, or the ability to run the Iraqi state. Iraqis, 
as we urged, should have run the Iraqi state and its 
institutions. An Iraqi government, with authorities seen by the 
people as embodying the power of the state, should have been a 
pillar of post-liberation transition. I should add here that it 
was indeed with difficulty that the CPA was persuaded to create 
a Governing Council of Iraqis rather than the Advisory Council 
of Iraqis that they wished to create. Many Iraqis protested 
strongly, saying it is the Iraqis who should form the 
government and the United States should provide the advice, not 
the other way around.
    The security situation immediately exposed some of the 
contradictions of the occupation. Law and order broke down and 
there was little effort by Coalition forces to put a stop to 
it; indeed, probably Coalition Forces were unable, did not have 
the resources to put a stop in the degeneration of law and 
order. Looting, kidnapping, blackmail, and assassinations were 
ignored by the Coalition. People had no one to turn to. The 
military forces did not have the personnel, the language 
skills, the intelligence capacities, or the social 
understanding to be an effective police and security force. 
Yet, really little attempt was made to mobilize local Iraqi 
resources in security and law enforcement. To my knowledge, not 
one individual has been captured, indicted, and tried for a 
crime of looting, kidnapping, or assassination in Iraq, or 
indeed any crime committed against an Iraqi, in the past 14 
months.
    The message that went to troublemakers in Iraq is that the 
coast is clear. The message to ordinary law-abiding citizens 
was that the Coalition did not care about their safety, only 
about force protection. Now this may not have been the reality, 
but I am talking about perceptions and perceptions are 
important in attitudes.
    Iraqis had high expectations after liberation. Repressed 
and deprived of basic necessities for decades, Iraqis were 
expecting some dividends from liberation in the form of more 
electricity, water, sanitation, personal safety, redress of 
grievance, participation in a democratic process. Perhaps these 
expectations were unrealistic. Certainly, delivery was short. 
Moreover, some sectors of society were disenfranchised as a 
result of policy decisions. The incidents in Abu Ghraib 
unfortunately compounded the sense of alienation felt by 
Iraqis.
    Within all this context, public diplomacy and communication 
between the Coalition and the people was virtually non-
existent. The local Iraqi television station, as we all know, 
was a dismal failure. The Coalition did not exploit the 
opportunity or the resources of the press or any other vehicles 
to communicate with the people, to tell them what to expect and 
what they could not expect, to tell them why electricity was 
not available, why water was not available, to tell them that 
this was because of terrorist activities and so on. Iraqis 
lived in the dark and fed on rumors and urban myths.
    In short, the dividends of liberation did not trickle down 
to the majority of Iraqi society. Unfortunately, Iraqis did not 
have the opportunity to be an active part of their own 
liberation, to be part of liberation and part of the transition 
process. A feeling of alienation has set in because of a 
feeling of a disempowerment and disenfranchisement.
    Today there are disturbing voices in the United States 
calling for the United States to lower our sights in Iraq. The 
voices claim that the U.S. objective should not be 
democratization and reform, but only stability. It is a call 
that comes out of a sense of panic. But stability can hardly be 
a vindication for the sacrifices made by the United States, by 
its Coalition partners, and by Iraqis. Stability, of course, is 
important. But we have a right through our sacrifices to aim 
for a higher goal. We must stay firmly committed to a vision of 
democracy in Iraq. This is important for Iraqis and important 
for the credibility of the United States in the region.
    As we move forward, the paradigm of occupation has to be 
abandoned in favor of a paradigm of a true partnership. As we 
build our country, Iraqis need the support of the United States 
and we need the multinational forces in Iraq to help us until 
we can handle security issues on our own. Mr. Chairman, we 
cannot do without multinational forces now, and we need 
international support in reconstruction and economic recovery. 
Failure in Iraq is absolutely not an option. It will plunge 
Iraq and the region into anarchy and give victory to 
terrorists, extremists, and fanatics. We must succeed, and we 
must do it in partnership with the United States and the 
international community. Iraqis look forward to a lasting and 
firm friendship with the United States based on mutual respect, 
shared interests, institutional cooperation, and friendship 
amongst our two nations.
    Thank you very much. I would be happy to answer questions.
    [The prepared statement of Ms. Al-Rahim follows:]

    [GRAPHIC] [TIFF OMITTED] T6993.012
    
    [GRAPHIC] [TIFF OMITTED] T6993.013
    
    [GRAPHIC] [TIFF OMITTED] T6993.014
    
    [GRAPHIC] [TIFF OMITTED] T6993.015
    
    [GRAPHIC] [TIFF OMITTED] T6993.016
    
    [GRAPHIC] [TIFF OMITTED] T6993.017
    
    [GRAPHIC] [TIFF OMITTED] T6993.018
    
    [GRAPHIC] [TIFF OMITTED] T6993.019
    
    Mr. Shays. Thank you very much. I am going to turn to Mr. 
Turner in a second to start off. But first I want to say, you 
have studied in Great Britain, you have studied in France, and 
you are well aware of American frankness. I would love to have 
a nice dialog that is very candid. So we are going to ask you 
questions that may appear to be aggressive, but from that we 
learn, as I think you know. I just want to say whenever I hear 
someone say we have lost over 800 Americans, as of June 13, we 
have lost 833 Americans. Each one of those lives is precious. 
We have 4,704 wounded, and each one of those lives is precious 
and many of them have come back without arms, limbs, their 
faces have been blown apart. Obviously, each one of those 
incidences tears our heart apart. I think your testimony can 
help us be more successful, and ultimately, have less deaths, 
less wounded, and can move this transition along. So I cannot 
wait to have the opportunity to talk with you. But it is Mr. 
Turner, then we are going to go to Mrs. Maloney, and then Mr. 
Platts, and then I will have my opportunity. I believe in the 
10-minute rule, so that is what we are going to do. We have 
better dialog that.
    You are on, Mr. Turner.
    Mr. Turner. Thank you. Thank you, Ms. Al-Rahim, for your 
honest discussion and for the issues that you brought before 
us. Your passion and commitment to the end result of a 
democracy for Iraq really shows your interest in a partnership. 
And your experience and intellect that you bring in giving a 
critical analysis of where we have gone wrong in areas of 
communication and approach and ways that we can improve it is 
very helpful.
    There is no question that whenever you are an invading 
military force, that transition from an invading force to one 
of partnership is difficult to balance. And in this instance, 
there is no question that there was an invasion that occurred.
    Second, the issue that we all know of the instability in 
Iraq is, in part, contributed by individuals that have entered 
Iraq that are not even representative of the Iraqi people that 
cause difficulty for both of us as we try to manage both the 
safety of our troops and, of course, the safety of the Iraqis.
    But the issues that you raise are ones where decisions 
could be made for outcomes to be different. I am assuming by 
your passionate commitment to success and your description of 
these that you do not believe that learning these lessons is 
too late and that we still have an opportunity for a 
partnership that could result in not only just success for a 
transition of democracy, but a positive relationship between 
the Iraqi people and the United States.
    Ms. Al-Rahim. Congressman, thank you very much. First of 
all, I want to affirm that all Iraqis want a partnership with 
the United States and they want a friendship with the Untied 
States. It is a question of how to remodel the relationship so 
that it is not a relationship of occupier and occupied, but of 
two equal partners who can work in synergy and in cooperation 
to forge a friendship. We need the United States and we do not 
feel that we can go it alone by any means. But we also want 
this friendship to be a long-term friendship, not just a 
friendship while we rebuild the country. We do not see this as 
a temporary thing. We want it to be long-lasting and we want it 
to be stable. This is why I think it is important to look at 
areas of error in order to rectify them.
    Mr. Turner. On the issue of democracy, when we talk about 
that as being a mutually shared goal and a goal of the Iraqi 
people, when we talk about a democracy here, obviously, we are 
talking about not just our form of government but really 
historically, what goes to the fabric of American society and 
the birth of our Nation. When we talk about democracy in Iraq 
and that being a goal, in looking at both the period of 
oppression for Iraq and also the educational system and the 
anti-West communication that had to occur throughout the 
system, what do you think the view is of democracy? And is it a 
shared concept? Is part of our issue one of communicating what 
democracy is, how it works, and really what it brings?
    Ms. Al-Rahim. Democracy happens to be the word most used by 
Iraqis in their political discussions. Now this does not mean 
that all Iraqis mean one thing by democracy, nor does it mean 
that they mean the same thing as the United States would mean 
by democracy. But I think that there are constant human values 
attached to democracy that all nations share that are beyond a 
certain country or a certain group of people, and that Iraqis 
are as capable of sharing those democratic values as any nation 
on Earth and is capable of practicing democracy as any nation.
    However, you did point to some serious issues. We had a 
period of repression that lasted 35 years. We have an education 
system that was corrupted by a dictatorship. And we have a 
number of other problems in Iraq that lead me to believe that 
democracy is going to have to be built block by block. In any 
case, I do not believe democracy is a kit that you take off of 
a shelf and assemble in this country or that. It has to be a 
process that moves forward and has to grow organically within a 
country. It is a series of policies, of principles, of 
operational mechanisms and practices that are implemented, the 
sum of all of which eventually amount to something recognizable 
as democracy.
    What frightens me is that if the United States and the rest 
of the world forget about democracy in Iraq and say, well, Iraq 
is not going to be democratic, it is inherently an undemocratic 
society, that Iraqis will also give up on the notion of 
democracy. And yes, stability is important, and stability is 
important for a democracy to flourish. But we really have made 
a good start in this democratic process. We have a free press. 
We have a civil society that is very vibrant. We have NGO's 
that have started, independent professional associations, 
entrepreneurs; all kinds of seeds of democracy. We do not want 
those to die. And it is very important for the United States 
and for the international community to reinforce and nurture 
those seeds rather than say, well, it is hopeless anyway.
    Mr. Turner. I think that you certainly have the U.S. 
commitment to democracy, and certainly there will always be a 
chorus of naysayers. But the basic bedrock of democracy is a 
belief in freedom of individual liberty, and that certainly 
includes everyone.
    I do have one concern about the issue of how a democratic 
Iraq is structured. One of the things that struck me while I 
was there is that as we went to schools, and we were there as 
the school was letting out and the parents came and were 
picking up their kids, we were able to have a free flow 
discussion about the issues of the school, their community, and 
the city of Baghdad. What we do not have here that is an issue 
that will have to be addressed in Iraq is that you do have, 
even though there will be freedoms in the economy of 
entrepreneurialship, you do have a concentrated commodity 
economy with oil. You have almost a singular commodity economy, 
but I am going to say concentrated in the hopefulness that the 
entrepreneurialship that will occur will rise and play a big 
role in the economy. That concentrated commodity economy is 
going to require some entity to have both control and 
disposition of those funds. That is a role that currently you 
do not see in like our country or other structured democracies, 
is that you see predominantly the government having authority 
over tax collection and the disposition of those funds but not 
over the issue of a jointly owned commodity. How do you see 
that as being an issue of concern and what thoughts do you have 
as to how that is addressed?
    Ms. Al-Rahim. In fact, Congressman, you do touch on a very 
important issue. All the countries, apart from the countries in 
Europe, that rely so heavily on oil income have been called the 
``renter states.'' In other words, states that do not need to 
do anything except collect the revenue from oil. Therefore, 
instead of no taxation without representation, it is no 
representation without taxation. So, you do not tax them, they 
do not have to be represented, and therefore the government is 
not accountable. And that is really the problem I think that 
you are addressing.
    There are some studies that have said that countries that 
rely over-heavily on oil, where oil is the monopoly of the 
state, have great difficulty in democratizing. Certainly, there 
is that risk. I do not think, however, that at this stage we 
can anything other than keep oil revenues in the hands of the 
government. I think anything else would truly destabilize the 
country, partly because of the massive reconstruction effort 
that needs to be orchestrated and managed by the government.
    However, I would like to point to some historical facts 
about Iraq. First of all, Iraq is rich in other respects, not 
just oil. We have very good agricultural potential, we have 
plenty of water, we have other mineral resources, and we have 
an extremely entrepreneurial and highly educated population 
that is eager to do things. In the 1950's there was a movement 
toward private sector industrialization in Iraq which was very 
successful. It was somewhat dropped in the 1960's, revived in 
the early 1970's again very successfully. We must place a lot 
of emphasis on this private sector because this is how we form 
civil society and a middle class that can actually ask for 
accountability from its government. This is something that we 
need to concentrate on because right now we cannot say 
privatize oil.
    Mr. Turner. I thank you very much. I will just note than in 
the many trips by helicopter for hours to different 
communities, I was struck by the endless amount of wheat fields 
and the irrigation. And I hope you do not take this the wrong 
way, but I said, ``My God, this is a real country. It has more 
than oil. It has tremendous potential in other ways.''
    At this time the Chair would recognize Mrs. Maloney.
    Mrs. Maloney. I thank you for your testimony and really for 
your many years of working to promote democracy and respect for 
human rights. I am very pleased that you are now in a position 
and with the authority to help work toward these changes in 
Iraq.
    You mentioned in your testimony that critical to the future 
success of Iraq is the support of the international community. 
I would say, on both sides of the aisle, we could not agree 
more. We have had efforts to involve the United Nations more, 
the G-7 needs to be involved more, NATO, I would say the Arab 
League, and definitely the countries surrounding Iraq that have 
a great stake in the stability and future strength of Iraq, and 
I would say muslim leaders of other countries, given the fact 
that 97 percent of the country is muslim. So my question to 
you, are there any other international organizations we should 
be reaching out to to help support Iraq? And do you have any 
direction on how we could be more successful for the Iraqi 
people in securing international support? Now the burden is 97 
percent on the United States of America. We would welcome more 
resources in any form to help the Iraqi people.
    Ms. Al-Rahim. Thank you very much. I believe you have 
mentioned all the organizations I can possibly think of-the 
United Nations, G-8, NATO, muslim countries, the Organization 
of the Islamic Conference, and so on and so forth. The U.N. 
resolution which was recently passed I believe on June 8th 
really opens the door for many more nations to support Iraqi 
reconstruction and the political, physical, and economic 
rebuilding of Iraq. Additionally, I believe that the transfer 
of all sovereignty and authority to an Iraqi government on June 
8th will further make it easier for other countries to help 
out.
    However, I may be mistaken, but I believe you were thinking 
in terms of military support.
    Mrs. Maloney. No. All support. Certainly humanitarian, 
military, NGO's, financial--support in any form.
    Ms. Al-Rahim. Yes. I think with the U.N. resolution and 
with the transfer of sovereignty we will be able to solicit 
assistance from a much wider range of countries than we have 
been up until this moment, and particularly support in 
reconstruction, financial support through extinction of debts 
to Iraq, of advancing more grants and loans to Iraq. We should 
not forget the enormous support that we need in training. This 
is a very big and important field and training support should 
come for our own military forces, for our security forces, but 
also training in technologies, in professions, and so on. There 
is a whole array that I think will be forthcoming.
    Mrs. Maloney. I hope that you are correct because it would 
be very helpful. One of the biggest challenges confronting Iraq 
now is security. The American military has worked incredibly 
hard to empower and work with the Iraqi police, the border 
patrol, the new civilian defense force. But it seems any 
country needs security in their borders in order to move 
forward with education and all the other things that a country 
needs to do to help their people. But security appears to be 
the biggest obstacle. Security for the Iraqi people, for anyone 
in Iraq, it is very challenging. And your comments on that, I 
was deeply disturbed to read reports of Iraqi police stations 
being overwhelmed and really taken by rogue militant groups. 
This cannot happen in a country. There is no order. And your 
comments on what we could do to improve the security, but it is 
extremely problematic for your new government if your streets 
are not secure. That appears to be the biggest challenge you 
have.
    Ms. Al-Rahim. It is, in fact, the biggest challenge. The 
Iraqi Governing Council has long advocated creating a core 
security force of Iraqis who are committed to the new order. I 
think one of the problems we have had in creating the current 
police force is that we have sacrificed quantity for quality, 
both in terms of selecting the people for the police force and 
in terms of training. We need to improve the selection process 
and the training, and we need to put the police force under 
Iraqi leadership so that they feel that they are part of the 
process of transition and not outside it. This is going to 
contribute to improved security, which we need if we are going 
to have elections in January.
    Mrs. Maloney. It was my understanding that the Iraqi police 
force is under Iraqi leadership. That there is a police chief, 
whose life has been threatened several times. That it is under 
Iraqi leadership. It appears to be that the problem is they are 
not holding the line. It is under Iraqi leadership. But if 
someone overwhelmed you, taking over your police station and 
taking over the streets, they are not being successful. So from 
what I read in the papers, it appears that the structure is 
under Iraqi leadership. Sometimes the American military has had 
to come in and restore order because the police force has not 
been capable of restoring the order. Now, is that because there 
is a lack of will in the heart of the people? Why can they not 
restore order?
    Ms. Al-Rahim. In terms of Iraqi leadership, the Iraqi 
Ministry of Interior did not have full authority. The 
ministries that continue to function still function under CPA 
authority and not under Iraqi authority. The Minister of 
Interior has no power to make decisions unilaterally. And I 
think this is a structural problem. Hopefully, it will be fixed 
by June 30th.
    Mrs. Maloney. On June 30th, when the Ministry of the 
Interior takes over, has complete authority and then they 
control completely the police, the border patrol, the civilian 
patrol, what happens if rogue militant groups are then able to 
overwhelm the police force of Iraq? Then you would have chaos I 
would think.
    So it is a tremendous challenge. And, in my opinion, it is 
more than a structural problem of who is in charge. All I know 
is in New York we have the best and the finest, that is what we 
call the police force, and when they go out on the streets they 
are not calling the Department of the Interior or the police 
chief, they are out there on their own restoring order, making 
sure people are protected, and getting the job done, very much 
like the American military does. If you are on the front line, 
you get the job done; you cannot call central headquarters. And 
what is happening, from what I am reading in the papers, is 
they are not getting the job done. They are being overwhelmed, 
they are scattering, they are not getting the job done. And 
when you take over complete power, if they are not able to get 
the job done, as an Iraqi citizen I would be extremely 
concerned because the safety of my children and my neighbors 
would be very much at stake. Maybe that is something we have to 
look at.
    But one thing that you mentioned in your statement, you 
said that many of the Iraqi people, if I quote you correctly, 
lived in the dark, that they were fed rumors, they did not 
understand the good intentions of how we were trying to restore 
the infrastructure, the schools, the electricity. So my 
question to you is, how can we, the United States, countries 
that come in to help, and the new Iraqi government, use the 
tools of public diplomacy in a better way in Iraq and prevent 
the people from relying on information that may be from a very 
biased source that does not in their goal support the 
independence and success of the new Iraqi government? How can 
we do a better job in getting that out?
    Ms. Al-Rahim. First of all, there has to be a much better 
media in Iraq, television particularly, that features Iraqis. 
The Iraqi television station or stations have to be content-
rich. They have to focus on the issues and they have to be 
utilized to inform people about what is happening, to address 
people's concerns, and to be a forum for people to send their 
grievances. We have not used any of that, neither through 
newspapers, nor television, nor radio. This is going to be a 
major responsibility for the new Iraqi government but I think 
the United States can help with this. Unfortunately, it is no 
longer up to the United States to run--and I do not say 
unfortunately--but it really will not be up to the United 
States from now on to run Iraqi television and the Iraqi media. 
It has to be the new government. But these resources must be 
utilized because so far they have done a poor job.
    I would like to go back, by the way, to the issue of 
security. I mentioned the quantity versus quality. There is an 
important issue, and that is it is not just a question of 
confronting these militants or terrorists, it is also of 
disbanding their cells. That is an intelligence operation and 
that has not been done very well by the Coalition. Iraqis will 
have to take over that job, and to the extent they succeed in 
intelligence, they will succeed in deterring terrorism and 
security threats.
    Mrs. Maloney. I want to thank you for your testimony. My 
time is up. But very briefly, a number of men and women are 
serving in Iraq from the district that I represent and they 
would like very much to come home. And they would like very 
much not to have to go into streets and restore order. They do 
not want to do that. They feel they have to do it to restore 
the order in the streets to give the new government a chance. 
So anything you can do through your government to strengthen 
the forces and give them the support is absolutely critical. 
Without security, without order, you do not have a country. And 
our military, as one Captain told me, he said, ``Carolyn, we do 
not want to go into any towns. We want to just be here in 
support of the Iraqi people. But if chaos breaks out and 
militant hoodlums are taking over the streets, they do not have 
any other choice.'' So I just want to plead with you to make 
that a high priority of your new government. We all wish you 
all the best.
    Ms. Al-Rahim. I will certainly relay that. Thank you.
    Mr. Shays. Your statement is rich with information and most 
of it is very easy for me to accept. Some of it, when I think 
about it, I weep internally because I think: If only. When I 
was there in April a year ago, I met a gentleman named Mohammed 
Abdul Hassan. He had been in an Iranian prison for nearly 15 
years, he did not make the swap, and he came back at age 55 to 
marry and start a family. I marveled at his tough life, and he 
gave me the feeling that his life was not too much different 
than a lot of Iraqis. And I got the sense that Iraqis are very 
tough people who have known a tremendous amount of suffering. 
But he was very eager to get on with his life and he had no 
resentments, which was to me very interesting.
    I asked him things that we did that troubled him. He told 
me, and they were simple things, but they meant a lot to him. 
Just even throwing candy on the ground and seeing children pick 
it up as if, as he said, they were dogs or chickens. Just even 
that was an image that he did not like to see. An individual 
soldier extending his hand and a woman going like this, saying 
thank you but--what she was saying was we do not shake hands 
with strangers, but thank you for honoring me. Things like 
that. I learned from some that if an American soldier 
humiliates a man in front of his wife, he might as well have 
put a dagger in his belly and twisted it.
    And I learned, most of all, that you want this to be an 
Iraqi revolution, not an American revolution. Now I understand 
that, and I understand it because we did not want it to be a 
French revolution when we depended on the French to block the 
Brits from coming in and prevent them from leaving the ports 
during our revolutionary war.
    But I will start with the thing that I find most puzzling 
about your statement. You say that declaring an occupation 
dealt a blow to Iraqi dignity and national pride. You know, I 
do not know if we declared that as much as the rest of the 
world declared it and we had to acknowledge it. What I would 
like you to do is tell me what was the alternative of an 
occupation in the first few days and weeks and months. Maybe 
you could start by giving me a sense of what you mean.
    Ms. Al-Rahim. Mr. Chairman, my understanding is that indeed 
the United States did want the legal label of occupation. If I 
am mistaken about that, then----
    Mr. Shays. Well let us assume it is true. But what I do not 
understand quite is it the label that troubled you, or it was 
the reality that troubled you? Because I do not know even 
without the label if we could have prevented the reality. I 
mean, we overthrew a government. We could have just gotten up 
and left but that would have been horrendous. Were we to 
automatically establish a government right like that? Tell me.
    Ms. Al-Rahim. Mr. Chairman, yes. It is my belief, and many 
Iraqis share this, that by July when the Iraqi Governing 
Council was formed----
    Mr. Shays. Last year.
    Ms. Al-Rahim. Last July, July 2003, by then it was high 
time an Iraqi government, not just an Iraqi Governing Council, 
but that an Iraqi government be formed, given authority to run 
the country, to run the ministries, and for the Coalition to 
remain in Iraq but to take a backseat certainly on political 
decisionmaking, on policies, and so on. We certainly needed the 
military forces to remain, and we still need them to remain, 
but it is the image of a disempowered Iraqi Governing Council 
that could not take a single decision and where the head of the 
CPA could say I am the ultimate authority in Iraq, I can veto 
anything, nobody else has any right to take any decision, we 
are the only ones in power.
    Mr. Shays. Bottom line, you would have liked to have seen 
last July, and you believe it could have been pulled off then, 
you would have liked to have seen the transfer of power in a 
sense that we are ultimately doing this June 30th.
    Ms. Al-Rahim. Yes, indeed, sir.
    Mr. Shays. OK.
    Ms. Al-Rahim. May I finish?
    Mr. Shays. Sure.
    Ms. Al-Rahim. I also believe that more people should have 
been brought into the political process through an Iraqi 
conference or through engaging more political parties and more 
political or social sectors from Iraqi society in some kind of 
political process, through a national assembly, or through 
consultative councils. One of the problems is that many Iraqi 
groups, even the limited political bodies that were created, 
were not fully representative of the whole richness of Iraqi 
society.
    Mr. Shays. Behind me is Dr. Nick Palarino, and he helped 
organize my five trips in the last year. What we learned very 
quickly were things like Iraqis saying to us, ``My father, my 
uncle, my cousin is in the army, he is not a bad man. There are 
bad people, get them out, but why punish my father?'' Or ``I 
have a family member in the government. Why do they have no 
future? Why would you do this?'' I had many Iraqis say, ``We 
understand why you have to do certain things, but why cannot we 
guard the hospitals?'' This was early on. And I remember when 
the hotel was first bombed there were 30 Iraqis injured and 6 
killed. They did not run away. They tried to prevent the 
terrorist and succeeded in preventing the terrorists from 
basically imploding the hotel. Were those the things that we 
should have been listening to?
    Ms. Al-Rahim. Yes. Absolutely, sir. This must have been in 
the early period because, in fact, the determination of Iraqis 
to deter terrorists in those early periods were really 
powerful. All Iraqis wanted to contribute. I referred in my 
written statement to the issue of disbanding the Iraqi army and 
I called it a hatchet job where laser surgery was required. 
What we should have done, indeed I am certainly not in favor of 
the Baath Party and I think many people in the Iraqi army had 
blood on their hands, however, to simply dismiss both of them, 
give them no compensation, no pension, no salary, and no 
prospect of getting any job whatsoever, both lost us a lot of 
talent and capability and angered a very large number of 
Iraqis.
    Mr. Shays. Let me just interrupt you there. I was listening 
to Ehud Barach, the former Foreign Minister of Israel, in his 
analysis of the failures, he said, ``The Baathist Party was not 
the Nazi Party. There were bad people. But,'' he said, ``how 
did you get your child an education? How did you support your 
family? That was one way to succeed in Iraq.'' And so I am just 
extending the point that even a Jewish leader was saying to us 
what an unfortunate mistake.
    Ms. Al-Rahim. I think the thing about the de-Baathification 
is it is much more important to take out the culture of the 
Baath than just ordinary individual Baathists. And that is what 
we should have concentrated on.
    Mr. Shays. I want to know if these observations are 
observations you agree with. First off, the statistic I have is 
that two-thirds of the Iraqi people want us to leave, and two-
thirds of them want us to stay, and they are sticking to it. 
[Laughter.]
    Ms. Al-Rahim. Yes. Iraqis are schizophrenic about this 
particular issue.
    Mr. Shays. I understand. So, as my staff says, in that 
respect they are ready for democracy. [Laughter.]
    Many Iraqis told me--they did not even say it, I felt it, 
they were suspicious of us as the government because they never 
had a government they could trust. It is almost by definition 
that if you are part of government, you cannot be trusted, and 
certainly not a foreign power. Does that seem consistent with 
what you would feel is out there?
    Ms. Al-Rahim. The problem was that there was no government. 
Of course, Iraqis distrust government. All nations distrust 
government, but perhaps Iraqis distrust government more than 
others. The problem, Mr. Chairman, was that there was no 
government. The Coalition simply could not substitute an Iraqi 
government.
    Mr. Shays. Fair enough. I think you have made your point, 
and I think it is an excellent point. Another observation that 
I had was that they blamed us for the sanctions, not Saddam. 
And I had so many Iraqis tell me of loved ones or neighbors 
that had been killed in their effort to rebel against Saddam 
and blamed us because we had told them to rebel and yet left 
the Republican Guard in place. Are those things that seem 
consistent with your view, one, that they blame us for the 
sanctions, and two, that they blame us for saying rebel against 
Saddam?
    Ms. Al-Rahim. Yes. I would qualify that, I do not think 
this is universal. The important thing is that the Iraqis were 
willing to give the United States the benefit of the doubt 
after liberation, and that is really important.
    Mr. Shays. OK. And then we squandered it.
    Let me proceed a little bit longer and then I can go back 
to you if you have some questions. Do you have some questions? 
OK. Let us go to Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman. Ms. Al-Rahim, thank 
you for your testimony and your clear devotion and dedication 
to your fellow Iraqis and the liberation of your nation. I want 
to followup on the chairman's question, his initial question 
was actually what I was contemplating, is the issue of how 
quickly sovereignty should have been turned over to the Iraqis. 
By your statement, you believe it should have been and could 
have been by July of last year. I think part of the chairman's 
efforts here today is to learn from what has happened and how 
things maybe could have been done in a different way and 
perhaps better way. How would we have gone about, in those 2\1/
2\, maybe 3 months between the initial liberation and the 
establishment of a government, how would you suggest we would 
have identified who the government would be, who would be in 
charge of the ministries? How would the Coalition authority 
select those individuals?
    Ms. Al-Rahim. Congressman, it was possible to identify a 
Governing Council by early July. I am not arguing about the 
people. I am saying they were not given any authority.
    Mr. Platts. Would you acknowledge that identifying a group 
that will be given a position of advisory input, to have some 
working relationship, is different than saying you have full 
sovereignty and full decisionmaking power over all of Iraq and 
all of the citizens?
    Ms. Al-Rahim. In the end, the Governing Council was in 
limbo. It was neither an advisory body nor was it a rulemaking 
authoritative body. In any case, any government that could have 
been appointed in July would have had to be an Interim 
Government awaiting elections. I do not really see where the 
problem is. The CPA identified a Governing Council, it 
identified ministers. It is just that they had no authority to 
do anything.
    Mr. Platts. The process was a little different in the sense 
of identifying that Iraqi Governing Council versus the Interim 
Government that is now going to assume sovereignty and the 
ability to bring in the U.N. and have a broader input to who 
the ones given the actual sovereignty will be. It just seems 
that ability would have been a little challenged to do it in 
2\1/2\ months.
    Ms. Al-Rahim. Congressman, the U.N. was already involved. 
Sergio DeMello, the representative of Khoffi Anan, was in 
Baghdad and was involved in the formation of the Governing 
Council. It may be doubtful whether it would have been formed 
without his assistance, actually.
    Mr. Platts. And I certainly appreciate your position, as 
appropriately it should be, that the sooner the Iraqis have 
their own sovereignty, the better. It just seems that given the 
challenges that we saw especially regarding security in those 
initial months and continue to see, the ability to so quickly 
say you have complete authority and responsibility and we are 
selecting you versus we are going to try to have input. When I 
visited Iraq in October and met with a number of the ministers, 
they certainly in my personal conversations with them did not 
convey that they had no input. In fact, they seemed to have a 
very positive working relationship with their Coalition 
Provisional Authority counterparts and conveyed to me and to I 
think other members of our delegation that they were 
appreciative of the input they had in their respective 
ministries. And your impression is that they really did not?
    Ms. Al-Rahim. They did not have very much influence. They 
did not control their budgets. They did not set policies for 
their ministries. Now, over time, they did sort of arrest 
authority from the CPA. So that by early this year many of the 
ministers did have a certain level of autonomy, but certainly 
not in October.
    I also want to go back to the July timeframe and say that I 
lived in Iraq from very early May until November, and in July 
the security situation was far, far better than it was in the 
fall and later on. Yes, we were having some sabotage activities 
and so on, but it was a manageable situation at that time. So 
it becomes a question of a chicken and egg story.
    Mr. Platts. The final area I wanted to touch on was in your 
assessment of what could have been done better in the area of, 
as you talked about in your testimony, expectations and 
delivery and the disbelief after the liberation occurred, 
whether it be electricity, water, other infrastructure related 
services that were so behind the times, of how quickly they 
were being provided. My understanding from my visit and other 
testimony that we have had over the past year is that was due 
in part to the lack of investment in the infrastructure by 
Saddam and the diversion of his resources to military 
capabilities and things.
    What would be your assessment of the individuals who were 
selected as part of the Iraqi Governing Council in their public 
efforts to try to convey realistic expectations of how long it 
would take to rebuild? I visited a power plant, what appears to 
be technology probably 40 years old, and it is not something 
that overnight you can replace. And although perhaps it was the 
impression the United States, Great Britain, the other nations 
are here and they are just going to fix everything, it would 
not be a realistic expectation. So what would be your 
assessment of the Iraqi leaders, Governing Council members and 
others such as yourself, in trying to get the message out to 
the average Iraqi that they are committing their time and 
American taxpayers money to rebuild our infrastructure. It will 
not happen overnight, to try to lessen those expectations so 
they are more realistic and not unrealistic?
    Ms. Al-Rahim. First of all, I agree with you that 
expectations were unrealistic given the situation. But there 
was always ``The man in the moon'' analogy, what journalists 
have called it: If the United States can get a man on the moon, 
can't it fix the electricity. I also want to acknowledge that 
neither Iraqis in the Governing Council nor the Coalition made 
enough of an effort through the media and through public 
outreach to explain to Iraqis why these expectations were 
unrealistic, when such expectations could be met, over what 
period of time, and when things went wrong nobody explained to 
the average Iraqi why they had gone wrong. We had a power 
outage for 24 hours in Baghdad and nobody came on television 
afterwards to explain why. This, by the way, was simultaneous 
with the brown out in New York and Northeast United States. Of 
course, the Iraqis immediately said, ``See, the whole of New 
York and Northeast United States browns out, they fix it right 
away. We have 24 hours of a blackout, nobody even tells us.''
    Mr. Platts. Sort of like being on Amtrak and the train 
stops and you do not know what is happening and no one tells 
you times 100.
    Ms. Al-Rahim. Times 100. And the failure was both CPA and 
Iraqi, and I do acknowledge that.
    Mr. Platts. And we heard I think an admission by the CPA 
when I was there in October that they were not adequately 
getting the message out and communicating to the average Iraqi 
citizen. One of the kind of heart-wrenching stories I came back 
with from our visit was that of the [Arabic name] hospital in 
Baghdad and visiting the maternity ward, the ICU, the NIC unit 
I call it, and the gratitude of the Iraqi doctor who was 
administering the hospital for the technology that the 
Coalition had brought in and of our efforts to immunize--I 
think now we are up to about 85 percent of Iraqi children are 
immunized--and how dramatically different that is than under 
the Saddam Hussein regime where, from what he told us, the 
formula was purposely poisoned for the Iraqi babies to 
purposely escalate the infant mortality rate, I think it was 
107 per 1,000. He knew what was done before and how the Iraqi 
government was, in essence, killing its own children, how the 
Coalition Authority came in and was helping to save the Iraqi 
children, and he personally knew that. But, clearly, that 
message was not being well conveyed and understood and embraced 
by the average Iraqi, by your comments, and that lack of 
communication in a broad sense was hurting the effort.
    Ms. Al-Rahim. Lack of communication played a big role I 
think in Iraqi perceptions and attitudes. And it is very sad.
    Mr. Platts. Mr. Chairman, I thank you for the opportunity 
to ask questions. And again, Ms. Al-Rahim, I thank you for your 
leadership and I certainly wish you and your nation and its 
citizens great success as you move forward and assume full 
sovereignty and embrace the liberties that you now enjoy.
    Ms. Al-Rahim. Thank you.
    Mr. Platts. Thank you, Mr. Chairman.
    Mr. Shays. Thank you very much. I am going to close up 
here. I know we need to get to the second panel. My only 
reference to Amtrak and being on a train is I think most 
Americans who have been in that experience know how irritating 
even that little simple inconvenience can be. You want to get 
somewhere, the train is an hour and a half late, you want to 
know why it is late, no one tells you why, no one tells you 
when you are going to get there. I just can imagine what it 
must be for Iraqis.
    But let me just tell you expectations on the side. And it 
is our own fault because our intelligence was so bad. We 
thought all we had to do was protect the infrastructure so that 
we could get it operating again, little did we know that it was 
30 years old and it was kept together by gum and rubber bands. 
It was a shock certainly to Members of Congress to realize that 
in order to get things running again we had to provide 
everything new. And some of it was a challenge because it was 
French-and German-made and we were not getting much interaction 
from those two countries. So, lots of expectations I think on 
both sides. So, welcome to the world of humanity.
    I want to read one statement you said because I think it is 
the most frustrating for me because this is where Americans 
shine. But it also is important because it seems so obvious. 
You write, ``In all spheres of life, Iraqis lived on rumors and 
urban myths. It is by now no secret that the television station 
established by the Coalition was a failure. Whereas it should 
have been extensively used by the Coalition and Iraqi officials 
to communicate with people, provide information, address 
concerns, and build confidence, the station was instead 
virtually content-free.'' I can just tell you, to the extent 
Members could get there, and quite often we were discouraged 
from going, that is something we kept asking because we had 
Iraqis asking us, particularly even the Queen of Jordan, she 
said, ``America, the country that communicates better than 
anyone else, with all your expertise and you could not do 
anything to counter Al-Jazira and you could not communicate 
with the Iraqi people.'' So it is one of the grand mysteries of 
our failure. And we have witnesses later that can testify. I do 
think, though, we have a local station that has gained some 
credibility. Is it Al-Iraqiya?
    Ms. Al-Rahim. Al-Iraqiya is the failed one. There is a new 
one called Al-Hurra which appears to be gathering momentum.
    Mr. Shays. Let me just tell you, Al-Iraqiya, I am told, is 
listened to by more Iraqis than even Al-Jazira is.
    Ms. Al-Rahim. Because most Iraqis do not have satellite. 
You do not need satellite for Al-Iraqiya, you need satellite 
for Al-Jazira. Anyone who has satellite does not watch Al-
Iraqiya. But most people do not have satellite. In the rural 
areas and in the provinces they do not.
    Mr. Shays. My biggest criticism, and I would like you to 
react to it, and if you are not comfortable, then that is fine, 
but the administration had a chance to allow the military to 
get Saddam's old regime members to fight the terrorists and 
deal with security and make sure our prisons were obviously run 
well and properly, and he had the chance to have the State 
Department, which is far more culturally sensitive, run the 
rebuilding. The administration decided that the chain of 
command, and I mean no disrespect to the military, but the 
chain of the command would go through the military. I know for 
a fact, because I remember having dialog with State Department 
last year, they were saying we need Arabic speakers, we need 
Iraqi-Americans, and they told us the reactions that would 
happen if we did certain things, which we ended up doing. They 
predicted so much of this.
    What I feel good about is that on June 30th the military 
will be in charge of what they do best--and by the way, they 
build schools well, they do all those other things well, but we 
were asking them to build schools in the daytime and fight the 
bad folks at night. We were asking them to work 18 hours a day, 
7 days a week, 52 weeks a year. And what I am happy about now 
is that we will have an ambassador who will answer to the State 
Department. And he has said, and he has made it very clear to 
me, he is an ambassador, he is not Mr. Bremer, he is a 
representative of our government to interact with the sovereign 
government of Iraq.
    I will say one other thing that makes me feel good because 
I feel the administration gets it. In a conversation with 
Condaleeza Rice a week and a half ago with nine Members, for 
about an hour and a half she was very fluent, as she is, but 
very willing to go wherever the dialog went. In other words, 
there was a lot of good interaction. And she said something at 
the end that sent shivers up my back. She said, and I thought I 
knew where she was going, she said, ``We had years before the 
Declaration of Independence to understand democracy and the 
idea of minority rights.'' The Declaration of Independence, 
1776, Articles of Confederation, the Constitution. Now I 
thought she was saying finally, after 13 years, we got it right 
with the Constitution. She waited a second, looked every one of 
us in the eye, and said, ``And in that Constitution I was only 
three-fifths a person.'' Which has to make Americans be a 
little more compassionate, a little more understanding that 
there may have to be compromises in this new government that we 
will not like and that maybe you will not like.
    And so let me end with this. What happens if this new 
government decides that they do not want a woman 
representative? What happens if they decide they do not want 
women in the ministry? What happens if this government decides 
that girls in school are not going to get the same education as 
boys in school? I want to ask you what happens there, and I 
know it is a hypothetical, but I am not sure it is going to be 
just the way I hope it will be and maybe not the way you hope 
it will be. So tell me what you think about that and how we 
should react if, in the end, we see a government that simply 
has lost many opportunities. Will you say, well, we screwed it 
up a year, so you are allowed to do the same thing? Or what 
will you say?
    Ms. Al-Rahim. Mr. Chairman, first of all, I do not think 
that this will happen. Iraqis are very sensitive to women's 
rights now. And by the way, women have had a big role in the 
Iraqi society, professionally not politically, for many 
decades. It is unlikely.
    What I would want, if they decide they do not want women 
ministers, I would want the right to advocate for women's 
rights. Even if a government says, no, we do not want women in 
this position, I want the right to lobby and speak freely. And 
I hope that the United States will support me in maintaining my 
right to speak, not in imposing anything on the government.
    I want to commend the civil affairs people in the U.S. 
military, and I mentioned them, by the way, in my written 
statement, who did a stellar job with local citizens groups and 
local councils. I also want to say that, indeed, everybody in 
the Coalition worked 18 hours a day, at least, and Ambassador 
Bremer worked 36 hours a day.
    Mr. Shays. I know that.
    Ms. Al-Rahim. It was phenomenal and we were full of 
admiration and awe for their energy and for their good will. It 
is just that good will was not conveyed in the best way 
possible. This is the problem we had. So I really do have a 
great admiration and appreciation for the work they did. I also 
admire the fact that you went over to Iraq five times, four of 
them with an NGO. That is quite a statement.
    Mr. Shays. That is the Peace Corps in me.
    Ms. Al-Rahim. Well, as the head of an NGO for a long time, 
I really appreciate that.
    Mr. Shays. Thank you. I will just say to you, you have been 
a wonderful witness. I have tremendous love and respect for the 
Iraqi people. I pray that your new government will succeed. I 
also want to say to you that I consider you extraordinarily 
brave and courageous people because I know you put your lives 
at risk, you put your families at risk, and we just have 
nothing but admiration for you and a great deal of love and 
affection. Thank you very much.
    Ms. Al-Rahim. Thank you, and same here.
    Mr. Shays. With that, we will move to the second panel.
    I now call on our second panel. Ambassador Ronald 
Schlicher, Deputy Assistant Secretary, Bureau of Near Eastern 
Affairs/Iraq, Department of State; Mr. Peter Rodman, Assistant 
Secretary of Defense, International Security Affairs, Office of 
Secretary of Defense; Lieutenant General Walter L. Sharp, 
Director for Strategic Plans and Policy, Joint Chiefs of Staff; 
Mr. Gordon West, Senior Deputy Assistant Administrator, Bureau 
for Asia and the Near East, U.S. Agency for International 
Development.
    Gentlemen, if you would stand, I will swear you in. Let me 
ask you if there is anyone else you think you may need to draw 
upon, you may ask them to respond to a question, even if we do 
not end up doing it, if you would suggest that they stand up 
and raise their right hand, that will save us from having to 
swear someone in later. You may not be called on but I think it 
helps. So if you would raise your right hands, I will swear you 
in.
    [Witnesses sworn.]
    Mr. Shays. Note for the record that all of our witnesses 
have responded in the affirmative. If we ask anyone else to 
come up, we will make sure that the transcriber has their full 
name and title.
    I want to thank each and every one of you. You honor this 
subcommittee with your presence. You have honored America for 
years with your service. And we are very grateful to each and 
every one of you.
    We will go in the order I called you. I believe you are, in 
fact, sitting in the order I called you. So, Ambassador, you 
have the floor. I would like you to stick to the 5-minutes as 
much as you can. I will roll over the clock, but I would like 
you to be as close to the 5-minutes as you can. And I would 
like you to feel free to speak about anything that happened in 
the first panel either now or in response to questions.

STATEMENTS OF AMBASSADOR RONALD L. SCHLICHER, DEPUTY ASSISTANT 
 SECRETARY, BUREAU OF NEAR EASTERN AFFAIRS/IRAQ, DEPARTMENT OF 
     STATE; PETER RODMAN, ASSISTANT SECRETARY OF DEFENSE, 
INTERNATIONAL SECURITY AFFAIRS, OFFICE OF SECRETARY OF DEFENSE; 
  LIEUTENANT GENERAL WALTER L. SHARP, DIRECTOR FOR STRATEGIC 
 PLANS AND POLICY, JOINT CHIEFS OF STAFF; GORDON WEST, SENIOR 
 DEPUTY ASSISTANT ADMINISTRATOR, BUREAU FOR ASIA AND THE NEAR 
        EAST, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Ambassador Schlicher. Very well. Thank you, sir. Mr. 
Chairman, members of the committee, it is my honor today to 
report to you on where we stand in the State Department in 
terms of being prepared for the upcoming transition to Iraqi 
sovereignty on June 30, and in preparing to stand up our new 
Mission in Baghdad in a way that helps both us and the Iraqis 
meet the challenges that lie ahead. We hope in this discussion 
that we will lay out for you kind of the institutional manner 
in which we will approach business in the coming period and 
give you an idea of where we think the Iraqi Interim Government 
starts from as a base in political terms during this crucial 
period. Let me thank you in advance for the interest and 
support you and the Congress as a whole have afforded to our 
personnel, both military and civilian, on the ground in Iraq.
    Mr. Chairman, you mentioned Ambassador Negroponte, which 
leads me to my first topic of how we are organizing ourselves 
in State to better be able to meet the challenge of 
transitioning to lead agency on June 30th in managing and 
representing our country's interest to a sovereign Iraqi 
government. Our first Ambassador to the new Iraq, John 
Negroponte, is, of course, eminently well prepared for the 
challenges at had. He is one of our most capable and 
distinguished diplomats. He is assisted on the ground in 
Baghdad by his Deputy Chief of Mission, that is Ambassador Jim 
Jeffrey, who was serving as our Ambassador in Albania before he 
answered the call to serve in Iraq. Ambassador Jeffrey, by the 
way, is already on the ground in Baghdad, leading an advance 
team to smooth the transition. Ambassador Negroponte and 
Ambassador Jeffrey have put together a superb, very senior new 
team that collectively features a very impressive mix of 
regional experience, which of course includes language skills 
as well, management skills, and technical expertise, because 
all of those things are very much going to be needed as we 
pursue our interests and help the Iraqis in the period ahead. 
This management team will supervise a very large Mission that 
will initially total approximately 900 American staff, and 500 
locally employed staff. Our security upgrades for our temporary 
chancery are proceeding on schedule and will be ready by July 
1. We have also chosen a site for a permanent chancery and 
would like to come to agreement with the Iraqi government on 
the way forward on this project as soon as possible.
    In preparing for the transition, there has been a 
remarkable effort undertaken by DOD and State, by Ambassador 
Frank Ricciardone and General Mick Kicklighter, who led a 
combined team to work out how State and DOD will work together 
to make the transition and work together in the new post-June 
30 context. Thanks to their work, the two agencies have 
finalized agreements between each other on respective roles, 
missions, resources, responsibilities and authorities so that 
we complement and support each other as we move ahead.
    Inside State, we are also in the process of reorganizing 
ourselves to better handle the challenges posed. Inside the 
near East Bureau, we are creating an operation called NEA-I, I, 
of course, for Iraq, which will entail my office as 
coordinator, a deputy political office, an economic office, a 
public diplomacy office, a political-military office, and an 
office of a coordinator for assistance in Iraqi reconstruction, 
which is headed by Ambassador Robin Raphel. This team in 
Washington will be responsible for close coordination on a 
constant basis with Ambassador Negroponte's team in Baghdad and 
with the interagency here.
    This new U.S. team will work in partnership with the new 
sovereign Iraqi Interim Government to achieve our shared goals 
on security and stability, and improving the delivery of 
services, and improving economic opportunity, and, of course, 
in ushering in Iraq's first democratic elections no later than 
January 2005. The U.N. will also remain an important partner in 
the effort to organize those elections.
    As the Iraqis begin to exercise their sovereignty, we will 
find ourselves in a more standard situation as far as the 
manner of conducting bilateral business goes. Instead of 
governing and ruling a country as we have been, we will doing 
business with a sovereign Iraqi government which will be 
looking to make its own decisions. On the diplomatic side of 
the house we will be doing business as a country team. I 
mention that not as a point of bureaucratic minutia, but 
actually because we believe the country team approach is an 
approach which achieves a comprehensive view of a given issue 
because it has all of the players in our operation around the 
table who can offer their perspectives on whether it is an 
economic perspective, a cultural sensitivity perspective, a 
security perspective, and in that way we come up with a common 
approach by which we are able to get the maximum in terms of 
pursuing our interest on any given issue.
    During the coming period, as you have pointed out, we will 
work with the Interim Government and the U.N. to assure free 
and fair elections. It is going to be very, very important 
during that period that we keep a clear focus on what average 
Iraqis and the political class are doing, saying, and thinking 
about the momentous events through which they and their country 
are passing. In this regard, the new country team will be able 
to build on the contacts and outreach established by CPA and 
Ambassador Bremer's team over the last 14 months. As someone 
who was personally involved in that effort, I can assure you 
that it was very difficult after over a decade's absence from 
the country, but CPA has made great strides in this regard in 
its time in Baghdad and the country team has a solid basis to 
build on.
    I would note also as well that our efforts to keep in touch 
with average Iraqis will be greatly aided by the presence 
outside of regional centers in Mosul, Kirkuk, Basra, and 
Hillah, and we are also going to embed State Department 
officers with military commanders in the field at the division 
level. We believe that this range of assets will help 
Ambassador Negroponte and our military commanders keep well 
abreast of the local context in which they are operating.
    Thus, with the establishment of a strong new Mission, with 
clear ideas about how we will coordinate the achievement of our 
policy and security goals, and with the establishment of the 
security partnership with the IIG, which my military colleagues 
will no doubt talk about, we are well placed in institutional 
terms to meet the challenges before us.
    Now let me switch to the Iraqi side and talk about the 
political basis on which the new Interim Government begins its 
great effort as well. We are hopeful that the preparations that 
the Coalition has made over the course of a year will help 
assure that the Iraqis are ready to resume sovereignty and move 
forward toward democratic elections. Our efforts have been from 
the ground up and from the top down.
    First, we provided training, advice, equipment, and 
facilities to help establish and strengthen local councils, 
regional councils, and national governing institutions. As of 
our last count, we had 16 Governorate councils, 90 district 
councils, 194 city councils, and 445 neighborhood councils. At 
the national level, we have already turned over I believe it is 
16, I think that is the number today, ministries to direct 
Iraqi control and the rest of course will be transferred over 
the course of the next 2 weeks. We will continue to offer to 
the Iraqis liaison officers to provide technical expertise that 
the Iraqis judge is necessary to run their ministries according 
to the required standards. Of course, in March we also 
supported the Iraqis as they drafted and adopted clearly 
defined principles and targets in the TAL, the Transitional 
Administrative Law, which will be in effect as of July 1 and 
will stay in effect until a constitutionally based government 
takes office. On June 1, the former Iraqi Governing Council 
adopted with Ambassador Bremer's full support the Annex to the 
TAL that reflected the results of extensive conversations by 
U.N. Envoy Lakhdar Brahimi with Iraqis from all over the 
country.
    That brings us to the new Iraqi government and the base on 
which it starts its efforts over the next several months. And I 
am happy to report to you that government is in place. It is 
led by President Ghazi al-Yawer and a strong Cabinet headed by 
Prime Minister Allawi. We believe that this government is 
particularly notable for its competence, its experience, its 
diversity in all terms, politically, professionally, 
geographically, and gender terms. Nearly two-thirds of the 
ministers have doctorates, and a preponderance of the ministers 
are new faces who have not served previously.
    It is our impression that, in spite of the terrorist 
attacks on Iraqi civil servants, the overall reception of the 
Iraqi public to the new government has been very positive. We 
hear it in Baghdad, we hear it back here, also regional support 
has been very good, all of the neighbors seem to be responding 
well, international organizations as well. So with these things 
institutionally and on the ground, we feel that we are well 
poised to move into the coming period. Thank you.
    [The prepared statement of Ambassador Schlicher follows:]

    [GRAPHIC] [TIFF OMITTED] T6993.021
    
    [GRAPHIC] [TIFF OMITTED] T6993.022
    
    [GRAPHIC] [TIFF OMITTED] T6993.023
    
    [GRAPHIC] [TIFF OMITTED] T6993.024
    
    Mr. Shays. Thank you. It would seem that we are well poised 
and I just hope that we make sure we do not lose this 
opportunity. You did go 10 minutes but it was important we hear 
from you. Thank you, Ambassador. I understand you have a 
meeting at the White House at 4:45.
    Ambassador Schlicher. Yes, sir.
    Mr. Shays. OK. We will make sure you are not going to be 
late.
    Mr. Peter Rodman, thank you so much for being here.
    Mr. Rodman. Mr. Chairman, I want to commend you for the 
contribution and the leadership that you have shown on this 
issue for a long period of time, and I want to congratulate you 
and the committee for this timely hearing.
    We would be remiss not to acknowledge the serious problems 
that remain in Iraq, particularly in the security field. But I 
welcome this opportunity to discuss what our strategy is and 
how we see it unfolding.
    There is no doubt in our minds, as the Ambassador in fact 
confirmed before, that the overwhelming majority of people of 
Iraq still welcome the removal of that regime and consider it a 
liberation. They have concerns now about how life is now, and 
we share those concerns. But those concerns focus on the 
future, not the past. As the Ambassador mentioned, the collapse 
of the old regime left a vacuum, and the essence of our 
strategy has in fact been to prepare Iraqis and to help Iraqis 
fill that vacuum themselves, to build their own institutions--
political, economic, and security institutions. And the next 
milestone, of course, in that process is the turnover of 
authority on June 30.
    In your invitation to me, Mr. Chairman, you listed six 
questions. In my prepared statement I have addressed those 
specifically, but I want to address one in the brief time I 
have right now. The thrust of the question is, what accounts 
for the change of attitude among the Iraqis that seems to be 
producing this insurgency against the Coalition. With all due 
respect, I would say that is maybe not the whole story. It is 
not only that a change of attitude may be fueling the violence 
against the Coalition; it may equally be that these extremists 
are targeting the morale of the population. They are attacking 
the economy, they are attacking the political process, they are 
attacking Iraqi police. They are doing everything they can to 
derail the progress that is being made--to demoralize the 
population, to discredit the Coalition.
    As political leaders, you understand the phenomenon of 
``What have you done for me lately?'' Fourteen months ago, they 
considered themselves liberated. So we have two syndromes. We 
have the ``man in the moon'' syndrome; we also have the ``what 
have you done for me lately?'' syndrome. It is obvious that 14 
months after liberation hardships still exist, uncertainties 
still exist, and it is only natural to be resentful of the 
people in authority, especially if those in authority are 
foreign powers exercising the authority of an occupier. So it 
is no surprise to me, therefore, when I read opinion polls 
showing a lot of people saying ``we want this occupation to 
end.'' The fact is, we share that desire and that is why we are 
launched on this timetable to hand over sovereign authority 
right away.
    Now just to elaborate a little bit. I do not accept the 
premise that the extremists represent the majority of the 
people or represent the aspirations of the people. I think they 
are applying a kind of Leninist doctrine of ``the worse the 
better.'' The more damage they can do, the more they can 
undercut us, no matter what hardship they are imposing on the 
people of Iraq--that is what I think is going on.
    Most of all, this war is a war against the democratic 
political process. It is not just a war against the Coalition; 
it is an attempt to derail this democratic political evolution. 
We have some evidence of that in the famous letter of Zarqawi, 
the terrorist leader who is affiliated with Al-Qaeda, a message 
of his that we intercepted a few months ago. He is very candid. 
He says, ``I am racing against time,'' because on June 30 when 
the Americans have ``stepped back'' and the Iraqis, when their 
own cousins and brothers are in charge, ``what excuse'' do I 
have anymore? And ``how do you motivate Iraqis to kill their 
own brothers and cousins?'' So he knows what our strategy is 
and I think his most important goal is to derail it.
    So one can ask, what is the measure of success? One measure 
of our problem, of course, is the casualties, the terrible 
violence that continues. But another metric of success is, is 
he succeeding in derailing this political process? And I submit 
that the answer is no. And that is what gives me encouragement, 
that we have a strategy that is on track. Legitimacy--and we 
will have that certainly when an elective government takes 
office we hope and expect at the beginning of next year--
legitimacy will be our strongest weapon against the extremists.
    So our strategy is not just military. It is partly a 
political strategy. In fact, the essence of it I would say is 
political. There is a lot of legitimate criticism that I have 
heard, including from the Ambassador, about, is our message 
getting through? The bottom line, I would say, in measuring the 
effectiveness of our message is that we believe the Iraqi 
people still have the same objective we have, and I think the 
polls indicate that. This democratic evolution is their 
objective and it is our objective. The fact that they want to 
see the occupation end soon is absolutely natural and 
absolutely correct on their part. And we know, as again we have 
heard the Ambassador say, that all of the moderate leaders of 
Iraq are unanimous in telling us they want the Coalition to 
stay. The U.N. resolution shows international support for our 
present course, which is the course of the Iraqi people as they 
advance toward a sovereign government and a democratic 
government.
    In other words, we think that June 30th is going to be the 
setback for Zarqawi that he is afraid of; even more so, an 
elected government at the end of the year. The Iraqi people 
know this, I am confident of that, and that again is what gives 
me confidence that we are on the right track.
    We, in turn, should never forget that we have accomplished 
something of historic importance in liberating Iraq. The 
success of a democratic Iraq will have wider ramifications 
throughout the Middle East, as the President has so often 
declared. And so we are embarked on an enterprise of great 
moral as well as strategic significance. It is a vital national 
commitment that we as a nation need to fulfill. Congress and 
the President, I am confident, are united in this task and I am 
confident that we will succeed. Thank you.
    [The prepared statement of Mr. Rodman follows:]

    [GRAPHIC] [TIFF OMITTED] T6993.025
    
    [GRAPHIC] [TIFF OMITTED] T6993.026
    
    [GRAPHIC] [TIFF OMITTED] T6993.027
    
    [GRAPHIC] [TIFF OMITTED] T6993.028
    
    [GRAPHIC] [TIFF OMITTED] T6993.029
    
    [GRAPHIC] [TIFF OMITTED] T6993.030
    
    [GRAPHIC] [TIFF OMITTED] T6993.031
    
    [GRAPHIC] [TIFF OMITTED] T6993.032
    
    [GRAPHIC] [TIFF OMITTED] T6993.033
    
    Mr. Shays. Thank you very much. I appreciate it, Mr. 
Secretary.
    General Sharp, welcome.
    General Sharp. Mr. Chairman, members of the subcommittee, I 
would like to thank you for this opportunity to address you on 
this important subject today.
    Today, Iraqi security personnel, the United States, and 31 
Coalition partners are working together to secure, protect, and 
establish peace and justice for all Iraqi citizens so that they 
may enjoy a future of their own choosing. Establishment of a 
safe and secure environment is the single most important 
element for improved Iraqi quality of life because it enables 
relief efforts, a free political process, economic prosperity, 
and social opportunity.
    And Iraqi people are stepping forward. More than 220,000 
Iraqi citizens have taken positions in the various components 
of the Iraqi security forces. Multinational personnel have made 
significant progress in recruiting, training, and equipping 
Iraqi security forces. This includes about 90,000 in the Iraqi 
police service, 18,000 in the department of border enforcement, 
35,000 in the Iraqi civil defense corps, 6,000 in the Iraqi 
armed forces, and 74,000 in the facilities protection. Based 
upon the current training and equipping schedules, we 
anticipate that the department of border enforcement, the Iraqi 
civil defense corps, and the facilities protection service will 
be fully trained and equipped by September of this year, the 
Iraqi armed forces by December 2004, and the Iraqi police by 
June 2005. By the end of this month, over $3 billion will have 
been committed to the Iraqi security forces equipping, 
infrastructure, and training.
    By June 30, the United States and its Coalition partners 
will transition control to a fully sovereign Iraqi Interim 
Government. Our responsibilities will not end with the June 30 
transition. Multinational forces will remain in Iraq at the 
invitation of the Iraqi people and with the authorization of 
the United Nations after the Iraqi Interim Government assumes 
full responsibilities. These forces, and increasingly Iraqi 
forces, will continue to conduct offensive operations to defeat 
any remaining anti-Iraqi forces and neutralize destabilizing 
influences in Iraq in order to create a secure environment in 
which the Iraqi people can build their own future. They will 
also continue to organize, train, equip, mentor, and certify 
credible and capable Iraqi security forces in order to continue 
the transition of responsibility for security from 
multinational forces to Iraqi forces. Concurrently, Iraqi and 
multinational forces will continue to conduct stability 
operations to support the evolving Iraqi government, the 
restoration of essential services, and economic development. 
All multinational forces will work in close coordination and 
consultation with the Iraqi government at all levels.
    Sir, if I may divert from my written statement for 1 
second. The discussion that we had earlier about the 
willingness to become full partners in this effort after June 
30, I would like just to read very briefly from the letter that 
Secretary Powell sent to the U.N. Security Council which lays 
out exactly how we will be partners in doing that. He stated in 
that letter, and we fully support this, ``Development of an 
effective and cooperative security partnership between the 
multinational force and the sovereign government of Iraq is 
critical to the stability of Iraq. The commander of the 
multinational force will work in partnership with the sovereign 
government of Iraq to help improve security while recognizing 
and respecting its sovereignty.'' And then it goes on to talk 
to the mechanisms by which we will do that coordination and 
cooperation.
    I am confident that through this partnership we--the 
Iraqis, the Coalition, and the United States Armed Forces--will 
succeed in establishing a safe and secure environment in Iraq. 
Sir, I am happy to take your questions.
    [The prepared statement of General Sharp follows:]

    [GRAPHIC] [TIFF OMITTED] T6993.034
    
    [GRAPHIC] [TIFF OMITTED] T6993.035
    
    [GRAPHIC] [TIFF OMITTED] T6993.036
    
    Mr. Shays. Thank you. I am going to do this, if you do not 
mind, Mr. West, because I do not want to rush your statement, 
and Ambassador Schlicher, I hope we are not letting you go to 
the White House so you can go to the White House picnic. I hope 
there is more substance.
    Ambassador Schlicher. It is real work.
    Mr. Shays. OK. I will be there later so I will check you 
out.
    Ambassador, let me ask you three questions, because we are 
going to go vote and you will not be here when we get back. I 
want to know what was the worst decision we made. I want to 
know the best decision. And I want to know what is the most 
important thing we must do in the year to come. So I want to 
know the worst decision, the best decision, and what is the 
most important thing you think we have to remember in terms of 
succeeding, and, obviously, succeeding is also winning the 
hearts and minds of the Iraqi people. Can you give me an answer 
to those questions?
    Ambassador Schlicher. Yes, sir. Let me just take a stab at 
it, please. Let me put it in brief context of the big 
difficulty that we faced as a Coalition on liberating Iraq and 
inheriting the government----
    Mr. Shays. Do me a favor--we have a vote and I only have 
about 3 minutes--just give me the answer, and then if you want 
to qualify it. In other words, I do not want to be unfair to 
you, but what is the decision that you think we should regret 
the most, the best, and then if we have time I will let you 
qualify them, OK?
    Ambassador Schlicher. Yes, sir. Based on my 6 months 
experience in Iraq where my job was actually to talk to Iraqis 
and measure their reactions to things, I think that we could 
have done a much better job at the beginning in making clear 
that our attitude toward de-Baathification needed to be focused 
on criminal behavior and not on mere membership.
    Mr. Shays. The bad guys.
    Ambassador Schlicher. Yes, sir.
    Mr. Shays. OK. What is the best decision we made?
    Ambassador Schlicher. I think the best decision that we 
have made is a quick transfer to Iraqi sovereignty, the 
quickest possible one, which is what we are approaching on June 
30. And I think that is the point on which Ambassador Rahim and 
I converge.
    I think the most important thing as we move forward is 
making sure that we use these mechanisms that are being set up 
that General Sharp described, make sure that our coordination 
with the Iraqi government is as close as it possibly can be and 
that the mechanisms on the security side that the General laid 
out are also complemented on the economic side with donor 
mechanisms. That is what we really have to get right.
    And my apologies to Mr. Rodman, General Sharp, and Mr. 
West.
    Mr. Shays. The subcommittee will stand in recess while we 
go vote.
    [Recess.]
    Mr. Shays. This hearing is called to order.
    You have the floor, Mr. West.
    Mr. West. Chairman Shays, we thank you very much for this 
opportunity to discuss reconstruction programs, lessons 
learned, and how we can look forward. I have submitted my 
written testimony that describes areas of infrastructure, 
governance, economic growth, and health and education wherein 
we have been active in cooperation with the CPA. I will not go 
into any detail on that. I would like to look forward.
    Looking at the eyes of the Interim Government come July 
1st, I would propose that what they look out and see, what they 
see as their challenges, are our challenges. They will know 
that Saddam basically controlled the country by severely 
limiting the numbers and the types of institutions, political 
and social, that existed in that country in exerting total 
control through the Baathist Party, the military, and the 
police. That is not a model that is going to be available or 
attractive to them on how they exert authority. But the means 
by which they can exert authority to both secure the country 
and to implement the many great ideas they will have is really 
the challenge that we face--how does a new government exert its 
authority over the country?
    I would say, in many senses, the concept of winning 
individual hearts and minds really will not be the challenge 
that the Governor, nor we, face. We have seen many cases. It is 
not a black and white situation. I will give you an example. We 
were working with the First Calvary in Sadr City and Al-
Rasheed. You will see youths who are out in the day helping 
clean up garbage and improve their neighborhoods and at night 
it will be the same people who are out shooting at our troops. 
If you ask them are they grateful for the assistance, they will 
say yes. It is confusing. You will see parents who are thrilled 
that they have power and electricity and they will be furious 
because their daughter comes homes and says I cannot go to 
school today, it is unsafe to go through the area. So it is a 
mixed picture and I do not think it is going to clear. And I do 
not know that it is even the issue. I think the issue will be 
to what extent you can, as I say, really govern a country.
    I would just like to go over some of the areas. In the area 
of governance, a tremendous amount of initiative has been done, 
a lot of it I believe under-appreciated, by the work of the CPA 
and the military and others at the local and provincial 
levels--development of village councils, local councils, 
district councils, provincial councils. Democracy is a bottoms 
up affair. A lot of that initiative has really formed what I 
believe is the future of Iraq, not so much the central 
government but the structure of a new society from the bottom 
up. That initiative has to be preserved and developed further. 
You see the councils are the first people who are being 
targeted in many of these towns and villages because they are 
the threats to those who are opposed to democracy. We cannot 
let that fail. That is a very important part of the new 
institution of Iraq.
    Other areas. Political party development. It is going to be 
very key to how you develop the ability to exert your authority 
or to have dialog with those who control the population.
    Civil society. The ability to foster groups who are able to 
bring together common and differing opinions throughout the 
country. We have seen cases of handicapped societies, of 
women's groups, of college students, the Iraqis are thrilled to 
have the freedom to get together and talk to each other openly 
without fear. And that is a very important new emphasis that we 
should build on in Iraq.
    The ability to build again the police and the military. Not 
just the issue of actually the force itself, but the fact that 
they are strong and potential institutions that will have a 
major impact on stabilizing Iraq.
    Tribal leaders and religious leaders. Their role in the 
political development. This has been a lot of the focus of 
people on the ground already. Those are key areas or 
institutions, if you will, to be built on.
    In areas like infrastructure, the infrastructure itself is 
important, but increasingly the ability for the ministries, the 
contractors, local communities to maintain the institutions 
surrounding the development of services, both economic services 
and others.
    Education. Schools and universities we consider very 
important. Not only are they institutions that help influence 
and shape attitudes, they are also just physically places to 
get youths off the street and occupied for a day and believing 
they have a future.
    Similarly in the economic growth area, jobs themselves are 
important, but also there are many institutions that go along 
in this area, whether they are banks, larger businesses, 
different chambers of commerce, ways to represent private 
sector interests.
    So we are really looking ourselves at ways that we can 
build into our programs more of a focus on how the Iraqis 
implement their good ideas, how they do their own security. We 
believe these are going to be done largely through 
organizations and institutions that are going to need to be a 
focus in the future. Thank you.
    [The prepared statement of Mr. West follows:]

    [GRAPHIC] [TIFF OMITTED] T6993.037
    
    [GRAPHIC] [TIFF OMITTED] T6993.038
    
    [GRAPHIC] [TIFF OMITTED] T6993.039
    
    Mr. Shays. Thank you very much, Mr. West.
    What I would like is when I ask a question of any one of 
you, I want any of you to feel you can jump in. I would love a 
dialog like that. Just for continuity's sake, I would like to 
ask you the same question that I asked Ambassador Schlicher; 
and that is, I want to know the worst decision we made, and you 
do not need to give it too much context, the best decision, and 
the most important thing we must do in the year to come.
    Mr. Rodman. I will volunteer. For the best and the worst, I 
would really cite one decision that was made that had a bad and 
positive implication, and that is the way the war was fought. 
We made a decision to emphasize speed rather than mass. It 
guaranteed the quickness of the result, the thoroughness of the 
defeat of Saddam. It helped us avoid a lot of big disasters 
that we do not have to worry about--destruction of the oil 
fields, a protracted conflict that could have destabilized 
other countries. But the downside was that regime collapsed so 
quickly and so thoroughly that it left a vacuum that may have 
been more than we anticipated. Maybe there is a lesson here 
about the nature of totalitarian regimes. What we have been 
struggling with ever since then is to fill that vacuum. 
Obviously, we want new Iraq institutions to fill that vacuum. 
That is precisely what we are doing and what we have to do.
    Mr. Shays. I am not going to ask you to answer it now, but 
was it a vacuum created because we destroyed their military, or 
was it because after destroying it, we said we were not even 
willing to reestablish a viable military? But I do not want you 
to answer that yet. Tell me the best decision.
    Mr. Rodman. Well, it is the same one. I think it was the 
right way to fight the war. And again, what we need to do now--
--
    Mr. Shays. You sound like Alan Greenspan here. The best 
decision was also the worst decision. But I get you. I 
understand. What do we need to do?
    Mr. Rodman. I think we need to continue the political 
process. I would put the priority on that as the key to our 
strategy.
    Mr. Shays. Can you define ``political process?''
    Mr. Rodman. Helping the Iraqis build their institutions, 
have those institutions get roots in the society. In other 
words, June 30th is crucial.
    Mr. Shays. I would say in response to that point that, and 
Mr. West, I think you rightfully point out, I was reading in my 
briefing that almost 90 percent of the Iraqi communities have 
some kind of council representation. Is that an accurate 
number, somewhere in that range?
    Mr. Rodman. Almost all have elected municipal councils.
    Mr. Shays. OK. Exactly. But we are into the 90 percentile. 
I think that is something I had not paid enough attention to. I 
think that is quite impressive. And I know that a lot of that 
was done through the military as well as CPA.
    General, the worst, the best?
    General Sharp. Yes, sir. The decision, it was not really a 
decision, but how we trained the Iraqi police and the security 
forces. I think, as General Eaton has said, the concentration 
on leadership we needed to focus on earlier than we did. And we 
have made those changes now. We have established new academies 
that are working at the mid-level and the upper-level 
leadership of the police, the ICDC, and the Iraqi army in order 
for them, as we start this partnership, to be able to take 
leadership roles within Iraq to be able to establish a secure 
environment.
    Mr. Shays. Let me be clear what you are saying. You are 
saying one of the worst decisions was in the beginning how we 
trained the Iraqi policy and the quality of the people we were 
getting.
    General Sharp. I will not say quality of people. I will say 
that we worked very hard to bring numbers in, quantity in, very 
quickly, and you saw those numbers grow very quickly. We 
started training both in the unit level with a short 3-week 
course, and then a longer 8-week course. But the concentration 
was on the basic level police skills, not on the mid-level 
managers or the district chiefs that could take 
responsibilities themselves.
    Mr. Shays. Best decision?
    General Sharp. I think the best decision continues to be 
the support of the commanders that we have over in Iraq. I have 
made several trips over also, and I think you would agree, if 
you ask any commander on the ground, at any level, he is 
getting the full support of the Department of Defense, of the 
U.S. Government, and Congress. There is not a thing that our 
commanders over there have asked for that we have not worked 
tirelessly, you have not worked tirelessly, in order to be able 
to get it to them.
    And then the most important thing I think is the 
partnership. We have started this partnership with the Iraqis. 
It is not as if on June 30 we are standing up something new. We 
have been doing joint patrols with Iraqis within the police, 
within the ICDC, and within the armed forces. But we will go to 
a new level come June 30. The mechanisms, the coordination 
mechanisms that we will establish based upon the U.N. Security 
Council resolution and the letters that are attached to that to 
have full partnership, to share intelligence even better than 
what we are doing now, to be able to work on unity of command 
arrangements to be able to get after the security issues, is 
the most important thing that we get right and make that a full 
partnership.
    Mr. Shays. Mr. West?
    Mr. West. In terms of reconstruction, I guess if I would 
look back and try and change one thing, I would have hoped that 
as a government we would have had developed more quickly a 
unique and a more unencumbered approach to going at 
reconstruction. We have tried to use existing structures of 
development, if you will, in very extraordinary situations and 
I am not so sure we really had all the tools nor the risk-
adverse nature to do the things that might have worked best--of 
getting moneys directly to Iraqi organizations, of doing more 
in business and job creation, or governance that did not come 
out of the standard toolbox. So, with hindsight, I would have 
liked to see a more robust and very specific set of tools to 
take on this unique situation.
    Mr. Shays. Does that mean you would have wanted to see more 
NGO's, like Save the Children, Mercy Corps, and others?
    Mr. West. I would have thought that would have been a great 
way to go. There are those things we can do right now. I am 
thinking more, for instance, when the Eastern Europe and the 
former Soviet Union came on the scene in development terms, we 
had very, very specific legislation and ideas and concepts and 
were unfettered by a lot of the typical bureaucracy, if you 
will, to get the job done. And I think this is equally 
important and I would have liked to see very, very new ways of 
doing business and out of the box thinking that perhaps we did 
not do in this case.
    Mr. Shays. General Patreaus, one of the many generals who 
did this, he did not wait for CPA. He had some money they found 
and they just went right into it.
    Mr. West. It is a little easier to do when you are not 
dealing with appropriated funds.
    Mr. Shays. Yes. But next door, we had a hearing on how we 
were appropriating funds and the potential speed that 
superseded costs, so costs became very high, and so on. I mean, 
we have some problems there as well that we are dealing with.
    What is the best decision we made?
    Mr. West. I think the construct in the areas of 
infrastructure. I think a lot of what happened we are going to 
see the benefits of in terms of the development of the Iraqi 
capacity in contracting, in employment generation. I believe 
there has been a very solid basis in the infrastructure area. 
Perhaps it has overshadowed some of the other areas, but I 
think there is a very solid----
    Mr. Shays. I am kind of smiling because the implication is 
that it is kind of that the new Iraqi government may get credit 
for the infrastructure, the year of trial and tribulation we 
have gone through. And maybe that is kind of a good thing. But 
the implication is you think we have a pretty good foundation 
of infrastructure and they can build on it.
    Mr. West. Absolutely.
    Mr. Shays. The thing that it is most important for us to 
do, Mr. West?
    Mr. West. Just repeating what I was emphasizing before, I 
believe a focus on Iraqi capacity particularly in an 
institutional sense.
    Mr. Shays. Mr. Rodman, I had asked a question that I did 
not let you answer earlier. Could you just refresh me on your 
point.
    Mr. Rodman. The best and the worst?
    Mr. Shays. Yes.
    Mr. Rodman. It was the way we fought the war. It had I 
think tremendous advantages and yet the vacuum----
    Mr. Shays. That is it, the vacuum.
    Mr. Rodman. The army dissolved itself; I would make that 
point. More than that we made a decision, these institutions 
collapsed and we did not find an army that reported to duty to 
take on new assignments from us. It melted away and we were 
forced to reconstitute these institutions.
    Mr. Shays. With all due respect though, that is the point I 
think, thank you for refreshing me, we did not invite them to 
come back. We did not say you have laid down your arms, you 
have gone, come back now and let us get you reestablished under 
new leadership or something. We did not do that.
    Mr. Rodman. Well, we reconstituted. We started building a 
new army and new police forces. In that process we have hired a 
lot of the same people who had that experience. On salaries we 
reversed ourselves. I think we made a mistake at the beginning 
to just leave these people alone. After a while we realized 
that these people deserved some help, so we reversed course.
    Mr. Shays. I would have thought that one of you would have 
said the worst decision we made was not to establish security 
early on. Allowing some Iraqis, and I want to say ``some,'' 
Iraqis to brutalize their country and other Iraqis saw us stand 
and allow that to happen. I would have thought one of you might 
have said that. Does that rank up pretty high? I mean it was a 
policy decision to not have our military engage the looters.
    General Sharp. When we moved in to establish a secure and 
safe environment in Iraq it was our responsibility to go after, 
and what we focused on was, the people at the time that were 
attacking us. As you will recall, the Fedayeen, the Saddam 
folks, were continuing to attack us and that is what our 
emphasis was to establish security based upon the folks that 
were attacking us.
    Mr. Shays. But we knew, and it had been predicted, that 
there would be a lot of looting. So are you defending the 
decision not to protect the infrastructures and allow the 
looting to go forward?
    General Sharp. I think as our capabilities allowed us, we 
stopped that looting.
    Mr. Shays. So you think we did not have the capability to 
prevent the looting?
    General Sharp. I think initially, as we moved in, as you 
recall, we moved in so quickly as we went throughout the 
country to be able to do that, where we saw looting we stopped 
it as quickly as we could.
    Mr. Shays. There was implication that the Turkish 
government did not fully engage their legislative body to allow 
us to come in from the North because of Turkey's interest in 
pleasing the French and becoming part of the European Union. 
What was the significance of our not being able to come in? And 
the reason I am asking is I have been told by some military 
folks that had we been able to come from all directions we 
might have been able to capture some people instead of allowing 
them to kind of just go into the woodwork.
    General Sharp. The military significance was that we had to 
adjust the plan. I think that General Franks did that very 
quickly to be able to move more in toward the South. Would we 
have liked to have been able to come in on all fronts? 
Absolutely.
    Mr. Shays. I have told every one of my constituents that on 
a scale of 1 to 10, the removal of the regime was an 11. So I 
am not being critical of this amazing and very quick action 
which had its pluses and minuses. But what I have been told, 
and if it is not a valid argument I want to get it out of my 
mind, I was told that had we been able to come from all 
directions, we might have been able to capture some of the 
armies before they just went into the woodwork. If you do not 
think that is true--I do not want to put words in your mouth.
    General Sharp. Sir, I do not believe that is true. I 
believe that as they saw how quickly we moved, they just 
completely dissolved. And you have to remember, just because we 
could not come in from Turkey, there were attacks by air across 
the country that did a lot of destruction to the armies both in 
the North and up Northeast of Baghdad. When we saw them move we 
were able to quickly destroy them by air. So I think that 
immediate mass effect across the country dissolved them very 
quickly. If there would have been another front to be able to 
even more quickly do that, I think we would have had the same 
effect.
    Mr. Shays. All right. A former U.S. advisor in Baghdad, now 
with Stanford University, has said, ``If you don't have 
security in Iraq, you don't have anything. We have to throw 
everything we have, everything, into getting the new Iraqi 
forces operating effectively.'' First, I took the position, and 
I was thinking later that I really did not have the ability to 
agree or disagree with it, and that was the issue of how many 
troops we needed. And the argument that you seem to be implying 
as well is we did not have the forces to protect the 
infrastructure.
    General Sharp. Well, I think we did protect a lot of the 
infrastructure. There were not any oil fields that were 
destroyed, or very, very few that were destroyed. We did not 
have massive refugee problems as we went throughout the 
country. Again, as Mr. Rodman laid out, I think the forces that 
we had we concentrated to move very quickly to Baghdad and it 
caused the insurgents to go into the woodwork and then came 
back out, and that is the issue we are dealing with now. So I 
would disagree that we did not have enough forces to be able to 
do it. I mean, how many days did it take us to topple the 
regime and to be able to move to Baghdad? Unheard of in 
history. We had the forces both on the land and in the air to 
be able to do the mission that was given to General Franks.
    Mr. Shays. It is funny, I did not think we would go down 
this road because I did not think there would be much 
disagreement on this. I would like to be just a little more 
clear. I was in Basra. I have been in Baghdad. I have seen the 
hospitals without not just the windows, without the frames, 
without the doors, without anything in them. There was just 
total looting and destruction of things that Iraqis would have 
considered precious to them, and yet someone looted them. And I 
have seen pictures of American soldiers standing by as these 
looters went in. So what I am having a hard time understanding 
is why you feel that we did provide security. There is not an 
Iraqi I know who thinks that security was provided. And it 
either was a decision not to provide it, or it was a decision 
that we were not capable of providing it. But you are the first 
person I have spoken to, General, that has suggested that this 
was not a bad thing, that we protected what we had to protect. 
So I just have to say that to you. And I am happy to have you 
make a comment.
    General Sharp. When we moved in and attacked and took out 
the regime, you obviously make decisions on what you do first 
in order to be able to accomplish your objectives. The phasing 
of the attack allowed us to move very quickly to Baghdad so 
that we could take the regime down, as we did. Simultaneously 
across the country with air attacks and ground attacks, we were 
able to take out their combat force so that we were able to 
topple the regime very quickly. That was the first phase.
    As we moved into the cities then, because of that rapid 
movement up North toward Baghdad, as we moved into the cities 
the first several days after the war, we did not have forces 
that were throughout the country that could stop all of the 
looting. But again I would say that I think the ability to be 
able to move quickly to be able to take down the regime saved 
United States, Coalition, and Iraqi lives because it ended the 
major combat operations very quickly. After that was 
established, we moved into the different regions that we are in 
right now and worked very closely to try to stop any of the 
looting at that time. It was a matter of phasing.
    Mr. Shays. OK. I will leave it at this. I am the last one 
who should judge what your capabilities are, and I knew that 
you tried to do everything you were capable of. It just seems 
to me that we were not capable of having that security and that 
it was very costly in that it sent a message, it seemed to me, 
as I have been there these various times and have heard 
comments from so many Iraqis, that we were either incapable or 
chose not to. In either case, it was very unsettling to the 
Iraqis. And I think what I am hearing you say, General, is that 
because it was so quick, we could not have done anything 
different about it. I think that is your message to me.
    I would love, Mr. Rodman, if you have comment in that 
regard. I wanted to address the same question to you about ``If 
you do not have security in Iraq, you do not have anything. We 
have to throw everything we have, everything, into getting new 
Iraqi forces operating effectively.''
    Mr. Rodman. My judgment of the military circumstances at 
the end of the war, my recollections, are the same as General 
Sharp's. We put a premium on speed and I think that saved 
lives. If we had done it differently and blanketed the country 
with lots of troops, it would have been a different kind of war 
and we would have paid the price in other ways.
    The quote you read I totally agree with. Security is the 
precondition for everything else. It is a vicious circle right 
now. It is impeding the economic reconstruction that has so 
much to do with the Iraqi people's well-being and sense of 
well-being. So that is a priority. And as your quote said, we 
want to train and prepare and equip Iraqis to fill that vacuum 
and build those institutions.
    Mr. Shays. OK. Let me just quickly ask all of you, why in 
your view did the U.S. authorities disband the Iraqi military? 
And I think from your standpoint, General, you think they did 
not disband it, they just disappeared. But we made a decision 
to disband it. That was a decision. We made a decision to 
disband the government, the army, and the police. My question 
to you is, why do you think the authorities decided to disband 
the Iraqi military?
    Let us start with you, Mr. Rodman.
    Mr. Rodman. As I said, we found nothing there when we got 
there--no institution that we could recover, retrain, reassign. 
The units melted away. The officer corps, we were not sure who 
was reliable. And I think CPA made a decision to build a new 
army and a new police. With respect to the police, I have heard 
an additional factor, which is that the Iraqi police in the old 
days had a different approach to policing--they were much 
better at knocking down doors in the middle of the night than 
they were about patrolling the neighborhood. So, too, we really 
had to rebuild from the ground up. There were tradeoffs. We did 
hire a lot of people, we put a premium on numbers. We have had 
to make sure the training and equipping caught up with their 
numbers. But we felt we did not have a lot of choice.
    In addition, there is a political reason. The Iraqi people 
hated that regime. And anything that smacked of, well, we are 
going in there, we are just going to take the institutions, 
particularly the security institutions, as they are and replace 
a few people at the top--that would have had very negative 
political ramifications among the Shiites, the Kurds. So for 
that reason too, we wanted to reassure the Iraqis that the old 
regime was dead and that something new was about to be built. 
And, unfortunately, that takes time.
    Mr. Shays. General, do you want to speak to this?
    General Sharp. I just would like to add to what Mr. Rodman 
said as far as the army goes. When you think of the old Iraqi 
army, you cannot think of a Western army or an army like ours. 
It is absolutely, as you know, sir, totally different, where 
the officer corps almost across the board was corrupt and 
punished physically many times the enlisted soldiers underneath 
them. Virtually no non-commissioned officer corps whatsoever. 
It was an army of a dictator and that permeated throughout the 
army. And our belief at the time was a lot of it disintegrated 
because when the recruits that were forced into the army saw 
the opportunity to run home, they took the opportunity to run 
home. And to think we would be able to pull those back together 
as a unit, it would be very difficult when it would be asking 
them to come back to an institution that they only knew of as 
one that was corrupt, that they did not get paid correctly, 
they were forced to servitude in that organization. So the 
tactic that we took, and continue to take, is to start from the 
ground level, put a lot of money, a lot of effort into building 
up the Iraqi security forces with professionally trained 
individuals, as we have been doing really since last summer.
    Mr. Shays. Mr. West, I know it is a little out of your 
territory, but you do a lot of thinking about this in your 
work. So the question about the disbanding the army, the 
police, and the government.
    Mr. West. I am actually going to take a bye on that one. I 
will just say that I think security, you cannot agree any more, 
security is the real issue. And just to note, security is more 
than just standing up a military and a police force. You cannot 
have enough police and military to secure every place, every 
time, if there is the intent within the society to undermine 
the new government. It is going to take a lot more in terms of 
earning the respect and the commitment of the people to make 
Iraq work. That is also part of this lessons learned: How do 
you build in the issues of security into the breadth of the 
programs of reconstruction, not just the police and the 
military, because all sorts of factors are going to affect the 
security and the ability to govern.
    Mr. Shays. Would you speak to the issue of CPA's efforts to 
distribute aid and development funds, rebuild infrastructure, 
and create a stable economy generating jobs for Iraqis. There 
has been concern that the money has not gone out as quickly, 
that there have been restraints there that have hampered our 
effort to succeed.
    Mr. West. There has been a lot of money spent and a lot of 
money spent well I believe in Iraq. I am not so sure that the 
amount of funds that has gone out the door is a measure of 
success or failure. I think in a fiscal sense, in a development 
sense, it is just amazing what CPA, military, USAID, and other 
organizations have done there. I think there really are a 
different set of issues and there are long lines of other 
questions in terms of institutions--the military, the lack of 
police, other issues. I do not think it is an issue of doing 
things more. Eighteen billion dollars is a mind-boggling number 
to me in terms of development in anyplace we have ever worked. 
The fact that it is taking perhaps a longer time to spend that 
amount of money to me has as many up sides as it does down 
sides. So I am not of the opinion that slowness in 
reconstruction has really been one of the major issues. As a 
matter of fact, I believe it is just amazing what the U.S. 
Government, broadly, has achieved in Iraq.
    Mr. Shays. Before I go to the next panel, I would love each 
of you to address the issue of your sense of the success or 
failure of this new government. In other words, there was a lot 
of criticism that we were moving too quickly. I sense you all 
agree that this makes sense. Second, are you optimistic, 
moderately optimistic, not quite sure, want to wait 2 months to 
see what is going to happen? But if you had to make some 
predictions, tell me how you think this new government is going 
to work out.
    Mr. Rodman. Mr. Chairman, first of all, I think the sooner 
the better, for reasons I mentioned before. It is deadly for us 
to be in the position of an occupier, and the sooner we can 
shed that mantle and put an Iraqi face on events the better off 
we are and the better that helps us marginalize the extremists 
and empower the good people of Iraq.
    Second, I think this is a superb group of people. It is a 
balanced ticket. These are representatives of all the moderate 
forces, all the regions, the ethnic groups, tribal groups. It 
is a well-constructed, broadly representative group of people. 
These are the leaders of moderate Iraq and I think they 
represent the majority. And even better, I am confident that 
they are going to be able to work together. And I agree with 
Ambassador Al-Rahim that the Governing Council was a success. 
It, too, was a balanced ticket. It included every group and 
they stuck together remarkably well in the face of repeated 
provocations and attempts by the terrorists to foment civil 
war. Those attempts failed. And so here too you see the Kurds, 
the Shiites, the Sunni working together. There are 
disagreements. The Kurds are making some demands. But this is 
political bargaining. This is politics. And they have resolved 
similar disputes over the past year with great political skill. 
The Iraqis are learning the arts of compromise and co-
existence.
    This group of people includes a lot of talented people, 
people we were able to see over the course of a year. We could 
judge who was good, who was not so good. So we had that year of 
experience in helping to pick the people and a very intensive 
consultation process that Ambassador Brahimi participated in, 
just, again, to see who was broadly representative in the 
country. So I think it is a good group of people, talented 
people. They are showing cohesion, political skill. They want 
us there, so they are going to cooperate with us in the 
interests of their own country. We are convinced we can work 
with them. And we will treat them with the respect due a 
sovereign country. We will behave differently after June 30th. 
But this is a group of people that we will be able to work 
with. We will respect their judgment. We know that they want us 
there so we think any problems that arise are going to be 
solvable.
    Again, we think the symbolism of this is tremendous. It is 
Iraqis running their own country. Secretary Powell made a good 
statement the other day that it puts the terrorists in an 
impossible position, that they are now attacking their own 
people, their own country. So I think we are going to be in a 
better position after June 30.
    Mr. Shays. I hope we protect them. And I say that because I 
think of the police officers in Baghdad who were waiting for 
weapons and they did not have them and the terrorists got in 
and went from room to room and killed them. It makes you want 
to weep, because there were some very good officers being 
trained. Thank you for your comment.
    General.
    General Sharp. Sir, I am very optimistic, and for several 
reasons. Let me read one sentence from Prime Minister Allawi's 
letter to the U.N. Security Council which I think is really 
indicative of both him and the entire Iraqi Interim Government 
and the people of Iraq as they move toward free sovereignty.
    Mr. Shays. Sure.
    General Sharp. ``Their government,'' and he is talking 
about the new Iraqi Interim Government, ``is determined to 
overcome these forces.'' And he is talking about the forces who 
would tear down this government and this country as it move to 
new sovereignty, ``and to develop security forces of capable of 
providing adequate security for the Iraqi people.'' And 
everything that Prime Minister Allawi has said, the Minister of 
Defense has said, the Minister of Interior has said, they have 
all been very forward leading as to saying this is our job, it 
is our responsibility. We need you there to help us, but we 
realize it is our responsibility for security. Sending that 
signal to the Iraqi people, as you talked earlier, sir, about 
the leadership need, it is starting from the top. So I am 
optimistic about that.
    No. 2, I am very optimistic with what we are doing because 
of the lessons learned that we have had on training Iraqi 
security forces, all five lines. As you know, we have sent back 
in one of our great officers, Lieutenant General Dave Patreaus, 
who had great success in the North, he is now in charge, 
working with the Iraqis to be able to help train and equip all 
of the five Iraqi security forces again. I think that will pay 
great dividends as we work in this partnership with Iraqis 
after June 30.
    And I think the last reason that I am optimistic is because 
of the U.N. Security Council resolution. The U.N. Security 
Council resolution, as the Ambassador pointed out earlier, 
invites member states to come in to help across the board in 
Iraq. It mentions specifically helping to protect the United 
Nations, critical in their work to be able to get elections 
moving so that we can go on the timetable. It invites member 
states to come in and help with security across the board. And 
this is a hope, but it is a hope that I think our entire U.S. 
Government may ask everybody to continue to work hard for, is 
to talk to Coalition countries and make them understand the 
importance of helping out with this effort in Iraq because it 
affects not only Iraq, but the global war on terrorism which 
none of us can opt out of, and it is critical that we move 
forward.
    So for all of those reasons, I am very optimistic that we 
are going to move forward and that the Iraqis are going to take 
charge and move forward with their country.
    Mr. Shays. Thank you.
    Mr. West, I just learned to my horror that--I mean, I am 
grateful that you have a son who is graduating, but I just was 
told now. So if you need to leave at this moment not to be 
late, I want you to leave. You are the last person I am going 
to ask this question and then I will get to the next panel.
    Mr. West. I will just finish the comment. Basically, I am 
very optimistic about the capacity, the intelligence, and the 
commitment of the Iraqis. I think it is going to be messy. I 
think neither the world nor the Iraqis have particularly the 
timeframe of what all the patience and hard work and sacrifice 
it is going to take. So, up close, a lot of times I think it 
will be disappointing. But the fact is you do not create a 
great democracy in 12 months or 2 years. It is going to take 
decades and a lot of hard work. But I am confident that they 
are on the right track and the pace of change is just mind-
boggling there. I think a lot of good things are going to 
happen and will continue to. So I am an optimist.
    Mr. Shays. OK. Thank you, Mr. West. And you should get on 
your way. Tell me you are not being late to your son's 
graduation or I will feel very guilty. OK.
    I just want to ask if any of you want to put anything on 
the record before we go to the next panel. Anything else on the 
record? OK. Gentlemen, thank you for your service to our 
country, and thank you for participating in this hearing. We 
appreciate it.
    And I thank the third, and final, panel for their patience. 
We have Dr. Samer Shehata, Center for Contemporary Arab 
Studies, Georgetown University; Mr. Richard Galen, former 
director of Strategic Media, Coalition Provisional Authority, 
who I think spent 6 months in Iraq; and Ms. Danielle Pletka, 
vice president, Foreign and Defense Policy Studies, American 
Enterprise Institute.
    If you would please come to the table, I will swear you in.
    [Witnesses sworn.]
    Mr. Shays. I have a sense of guilt because I have a good 
friend, who is in the very middle, Mr. Rich Galen, testifying. 
So now that I have gotten that out in the open. I thank all of 
you for being here. I am grateful for all of your work and your 
contribution to this hearing. Obviously, Mr. Galen, I am very 
grateful that you would have spent 6 months of your life 
without your wife and family in Iraq. So thank you for that, 
and thank you for now allowing us to have the input of your 
knowledge.
    So, Dr. Shehata, we will start with you. Thank you so much.

 STATEMENTS OF SAMER S. SHEHATA, CENTER FOR CONTEMPORARY ARAB 
STUDIES, GEORGETOWN UNIVERSITY; RICHARD GALEN, FORMER DIRECTOR, 
STRATEGIC MEDIA, COALITION PROVISIONAL AUTHORITY; AND DANIELLE 
  PLETKA, VICE PRESIDENT, FOREIGN AND DEFENSE POLICY STUDIES, 
                 AMERICAN ENTERPRISE INSTITUTE

    Dr. Shehata. Mr. Chairman, I am honored to be here and 
delighted to be asked to share my views with you on this 
important topic. My remarks today are only a summary of my 
longer submitted testimony and address the following questions.
    First, what events caused the change in Iraqi attitudes 
toward the United States and the CPA from the fall of Saddam's 
regime to the present?
    Second, and related this, what factors caused the security 
environment to deteriorate?
    Third, why did Coalition and U.S. Government public 
diplomacy efforts fail to influence the Iraqi public?
    And finally, and I think maybe I will have an opportunity 
to talk about this in the Q&A because I realize I only have a 
short period of time here, the overall question of U.S. public 
diplomacy in Iraq and the Arab world.
    First, it is important to accurately understand Iraqi 
reactions to the overthrow of Saddam Hussein and the U.S. 
presence in the country. Although the majority of Iraqis were 
delighted to be rid of the Hussein regime, and many were and 
are thankful to the United States for accomplishing this, 
Iraqis were, from the beginning, ambivalent about a foreign 
military presence in the country and/or an American role in 
Iraqi politics. The subsequent course of events--a series of 
policy mistakes, poor decisions, and the failure to deliver on 
promises and meet obligations, as well as high expectations on 
the part of many Iraqis--have led to the current troubling 
situation with regard to Iraqi hearts and minds.
    As a result, it would not be unreasonable to say today that 
the war for Iraqi hearts and minds might already be lost. I 
apologize for being direct, but only an honest appraisal of the 
situation is likely to be of any benefit to you.
    The No. 1 issue in Iraq, as we have heard today, 
immediately after the war in April 2003 continues to be the No. 
1 issue in Iraq today, 14 months later--security. Security is 
key, it is foundational to all public diplomacy efforts as well 
as post-war reconstruction, investment, commerce, civic 
involvement, education, and everyday life. Every element of 
Iraqi society is dependent upon the maintenance of security. 
And the absence of security acts as a bottleneck on what can be 
achieved in all of these fields.
    The failure to establish basic law and order is the leading 
criticism Iraqis make of the CPA and the occupation. There is 
universal agreement across a wide spectrum of Iraqis, from 
those favorable to the United States to those critical of 
America, from religious as well as secular elements, from 
Sunni, Shiite, Kurd, Turkmen, and others, that security is the 
main problem facing the country. This is demonstrated by both 
public statements as well as the available polling data.
    We must precisely understand what is meant by security 
however. When Iraqis speak of security they are not primarily 
referring to attacks on Coalition forces or the targeting of 
U.S. soldiers. They are referring to the safety of ordinary 
Iraqis in the pursuit of their everyday affairs. The failure of 
the CPA to provide security against car-jackings, kidnappings, 
armed robbery, abduction, rape, and other kinds of theft and 
banditry, in addition to the insecurity caused by attacks on 
Coalition forces, is the primary complaint most Iraqis have of 
the occupation. Iraqis simply do not feel safe and many, quite 
possibly the majority, hold the CPA and the United States 
responsible for this situation. I experienced this myself in 
Baghdad last summer.
    Let me move to the causes of the present security situation 
briefly. The unwillingness or inability of the Coalition forces 
to stop the widespread looting following the fall of the regime 
was a terrible beginning that produced a feeling that no one 
was in charge, encouraged criminal elements, and made the 
country's reconstruction exceedingly more difficult as a result 
of the pillaging of public utilities and ministries. The 
decisions to disband the Iraqi army and police force after the 
fall of Baghdad have also contributed to the continuing 
security problem in multiple ways.
    The disbanding of the army and police produced two negative 
consequences: The country was left without the institutions 
most capable of maintaining law and order; and second, it 
produced thousands of disenfranchised men trained in military 
and security operations now without jobs or income, unsure of 
their future in the new Iraq, and embittered at the CPA and the 
United States.
    Insufficient troop presence from the beginning coupled with 
the wrong types of forces, arguably, combat soldiers as opposed 
to trained peacekeepers and military police, has also 
negatively impacted the security situation.
    Let me move to the second most important factor in 
determining how Iraqis view the CPA and the United States at 
the present; and that is the question of public services.
    Many in the CPA have worked tirelessly to improve the 
situation in Iraq and much has been accomplished. But the fact 
remains that, in terms of public services, the overall picture 
is mixed. For example, with regard to the telecommunications 
sector, there actually has been quite a great deal 
accomplished. There are now today more telephone lines in Iraq 
than pre-war if we include the newly established cell phone 
service, for example, although the land line figure is actually 
still below, slightly, the figure that existed before the war.
    Though there have been improvements in telecommunications, 
electricity remains the greatest obstacle in terms of public 
service provision. Electricity is the single most important 
public service that directly affects Iraqi opinion of the U.S. 
occupation as it has a direct impact on many aspects of daily 
life. It is crucial for refrigeration, air conditioning, water 
and sewage, lighting, security, effective hospital operations, 
commerce, and almost all elements of everyday life in Iraq. 
Iraq today has still not reached pre-war levels of electricity. 
For some electricity has become the metric for measuring the 
CPA's success or lack thereof in terms of delivering public 
services.
    The DOD estimated pre-war levels of electricity production 
in Iraq to be 4,400 megawatts daily. The CPA estimated the 7-
day average of peak electricity production for the week of May 
22-28, 2004, to be 3,946 megawatts--still well below pre-war 
levels. This corresponds to Iraqi impressions revealed through 
polling data. In the USA Today/CNN/Gallup poll administered at 
the end of March and the beginning of April, which included 
roughly 3,400 Iraqis, 100 percent of Iraqis surveyed said they 
``go without electricity for long periods of time.'' This 
figure is actually up from 99 percent in 2003.
    After security, electricity is the second leading criticism 
of the CPA and the occupation among Iraqis. And was said 
previously, many Iraqis remain incredulous that the most 
powerful country in the world cannot restore electricity to 
pre-war levels in Baghdad and elsewhere in the country 1 year 
after the war. Some Iraqis, I am sad to say, believe this is a 
deliberate policy on the part of the United States. I heard 
this myself when I was in Baghdad last summer. The failure to 
deliver electricity at pre-war levels 1 year later has 
negatively affected Iraqi attitudes toward the United States 
and the CPA.
    There is not sufficient time here to compare all the levels 
of other public services and infrastructure in Iraq before the 
war and at present. Many however see these as small matters 
which the United States should have solved by now. Both Iraqis 
and others do not make evaluations of the present based on the 
possibility that things might, and probably will, be much 
better 5 years from now. They base their evaluations on what 
conditions are like today. Real people experience and think in 
days and months. Decades and generations are the timeframes of 
historians and academics.
    Let me address another very important topic that has not 
received much attention today with regard to how Iraqis view 
the CPA and the occupation, and that is the question of 
unemployment. Accurate employment figures are difficult to 
obtain for Iraq. Mass unemployment, however, continues to be a 
serious problem and should be viewed, in part, as a security 
issue in addition to its importance for Iraqi public opinion. 
In addition to fueling frustration and resentment toward the 
U.S. occupation, large pools of jobless men could become a 
source of potential recruits for the insurgency.
    In March, the CPA estimated unemployment at between 25 and 
30 percent, while the Economist Intelligence Unit put the 
figure closer to 60 percent for the same month. According to 
the June 9, 2004 Iraq Index, which is put out by the Brookings 
Institution, unemployment is estimated to be between 28 and 45 
percent in Iraq.
    Let me talk about how many Iraqis--and I will be brief--
experience the U.S. presence. How some Iraqis experience the 
U.S. military presence in their country has also negatively 
affected many Iraqi hearts and minds. Stories of house raids in 
the middle of the night with heavily armed troops kicking down 
doors, frightening women and children in the process, circulate 
in Iraq and have embittered Iraqis who experience such raids 
and who are neither involved in criminal activity or the 
insurgency, as well as other Iraqis.
    Long, seemingly arbitrary detentions with little or no 
information provided to the detainees' families has been a 
grievance voiced by many. On some accounts, Iraqis also resent 
U.S. military convoys in urban areas and checkpoints. Civilian 
casualties, of course, are an altogether different matter.
    Iraqis have an overall negative impression of U.S. military 
forces according to the various polling data. Recent CPA 
polling found that 80 percent of Iraqis have an unfavorable 
opinion of U.S. troops. The USA Today/CNN/Gallup Poll produced 
similar findings.
    The impact of house raids, wrongful detention, the 
disproportionate use of force, and civilian casualties goes 
well beyond the individuals directly involved. Every house raid 
on law-abiding families turns an entire street against 
Coalition forces, every wrongful detention creates a 
neighborhood opposed to the occupation, and every civilian 
casualty produces an extended family embittered against the 
United States.
    The logic of militarily defeating an insurgency with a 
foreign army runs counter to the logic of winning the battle 
for the hearts and minds of the general population. Counter 
insurgency operations necessarily result in urban fighting, 
damage to neighborhoods, and civilian casualties. The case of 
Fallujah is particularly instructive. Because I have run out of 
time, I am not going to go through the case of Fallujah. But 
let me just say----
    Mr. Shays. I will give you an opportunity in the questions.
    Dr. Shehata. OK. In brief, that from the perspective of the 
war for the hearts and minds, the events of Fallujah were 
disastrous, infuriating most Iraqis, galvanizing opinion 
decidedly against the United States, and inflaming anti-
American sentiment. Almost all Iraqis viewed it as unjustified, 
collective punishment and the disproportionate use of force, 
including our allies in Iraq like the current Prime Minister as 
well as Adnan Pechachi and others.
    Mr. Shays. Let me do this. I know you have more in your 
statement, but let me get to Mr. Galen.
    Dr. Shehata. Sure.
    [The prepared statement of Dr. Shehata follows:]

    [GRAPHIC] [TIFF OMITTED] T6993.040
    
    [GRAPHIC] [TIFF OMITTED] T6993.041
    
    [GRAPHIC] [TIFF OMITTED] T6993.042
    
    [GRAPHIC] [TIFF OMITTED] T6993.043
    
    [GRAPHIC] [TIFF OMITTED] T6993.044
    
    [GRAPHIC] [TIFF OMITTED] T6993.045
    
    [GRAPHIC] [TIFF OMITTED] T6993.046
    
    [GRAPHIC] [TIFF OMITTED] T6993.047
    
    [GRAPHIC] [TIFF OMITTED] T6993.048
    
    [GRAPHIC] [TIFF OMITTED] T6993.049
    
    [GRAPHIC] [TIFF OMITTED] T6993.050
    
    [GRAPHIC] [TIFF OMITTED] T6993.051
    
    [GRAPHIC] [TIFF OMITTED] T6993.052
    
    [GRAPHIC] [TIFF OMITTED] T6993.053
    
    [GRAPHIC] [TIFF OMITTED] T6993.054
    
    [GRAPHIC] [TIFF OMITTED] T6993.055
    
    [GRAPHIC] [TIFF OMITTED] T6993.056
    
    [GRAPHIC] [TIFF OMITTED] T6993.057
    
    [GRAPHIC] [TIFF OMITTED] T6993.058
    
    [GRAPHIC] [TIFF OMITTED] T6993.059
    
    [GRAPHIC] [TIFF OMITTED] T6993.060
    
    [GRAPHIC] [TIFF OMITTED] T6993.061
    
    [GRAPHIC] [TIFF OMITTED] T6993.062
    
    Mr. Shays. I realize I may have erred here as well. You 
have been in Iraq since the----
    Dr. Shehata. After the war.
    Mr. Shays. After the war. Have you as well, Ms. Pletka?
    Ms. Pletka. Yes.
    Mr. Shays. So thank you all for doing that. That just shows 
my bias to a good friend.
    Mr. Galen, you have the floor.
    Mr. Galen. Thank you, Mr. Chairman. I would like to begin 
this portion with the conclusion of my written testimony, which 
is this: We should remember that the last time the United 
States was an occupying power was in Japan. We defeated Japan 
in 1945. We did not return sovereignty until early 1952--having 
signed the Treaty of San Francisco in late 1951. So we occupied 
Japan for just under 7 years. Japan was a monolithic society--
one religion, one culture, one history. But Iraq is a multi-
religious, multi-ethnic, and largely tribal in its history.
    Japan is a series of islands, easily isolated. Iraq is 
surrounded by neighbors who are not particularly thrilled about 
a non-theocratic, at least semi-democratic, potential economic 
powerhouse building up right next door.
    We fought a war of attrition against Japan. A significant 
number of Japanese young men who could have continued to fight 
had already been killed in the march across the Pacific. Iraq's 
military disintegrated in about 3 weeks and, indeed, we pointed 
with pride to our precision in military action in keeping enemy 
combatant deaths to a minimum.
    In just 15 days from today, some 14 months, not 7 years, 
after the fall of Saddam, we will be returning sovereignty to 
the Iraqi people. And we should take justifiable pride in that 
accomplishment and have an optimistic outlook on what the 
ripples and echoes of that accomplishment will mean to the 
future of the region.
    I want to speak for a second, sir, about some of the 
heroism that we saw in Iraq, not the least the three of you 
sitting in front of me, the chairman having been to Iraq some 
five times, at least three times without the cover of a CODEL. 
And as I put in my written statement, I have an endearing 
memory in my mind of meeting you and I think Dr. Palarino, and 
I did not know the gentleman from Virginia, Frank Wolf, outside 
the gate of the Green Zone--I know this is incorrect in its 
fact, but it is correct in its imagine in my mind--not getting 
out of a Humvee surrounded by crew served weapons, but crawling 
out of what appeared in my mind to be a 1957 Opel with rusted 
bullet holes in it.
    Mr. Shays. We were grateful it was dirty.
    Mr. Galen. My point exactly. That is certainly heroism and 
it is under-recognized I think to go around the country as you 
did looking for ground truth, as we like to call it, and coming 
up with your own conclusions.
    Another hero was here earlier, Ron Schlicher. We sat about 
15 feet apart for most of the 6 months that I was in Iraq. I 
wrote about this in one of my columns during the explosion in 
Fallujah. Ambassador Schlicher and Ambassador Dick Jones went 
to Fallujah during the height of the unrest, of the chaos. And 
as I wrote, they did not go dressed in bowler hats and in 
morning coats. They went in kevlar helmets and in flak jackets. 
It was, frankly, one of the bravest things that I saw while I 
was there.
    The third hero, you pointed to earlier, is the Iraq 
Representative to the United States, Ms. Rend Al-Rahim, who at 
great personal risk has served her country very well, is 
clearly a brilliant spokesperson. I did not agree with 
everything she said, but she says it beautifully, she says it 
with passion. And as an example of how brave she truly is, 
during the time of the TAL negotiations, the Transitional 
Administrative Law negotiations, we were, frankly, out of 
security people; we just did not have anymore left, everybody 
was used up, and Ambassador Bremer's special assistant, a young 
man named Brian McCormick, called and asked if I was free for 
about an hour, and I said, sure, and he said, ``Would you bring 
your gun.'' And to show how brave Ambassador Rahim is, I was 
her security detail when we transported her from the Ministry 
to Foreign Affairs back into the Green Zone. And if there ever 
was an act of heroism, I guarantee you, sir, that was it.
    Mr. Shays. No. I think it was ignorance is bliss. 
[Laughter.]
    Mr. Galen. I just want to make one last point, sir, before 
I turn over the microphone. And that is, as we move through 
this, it is very difficult, impossible I suspect, to judge how 
high a tide will be by looking at one or a few waves as the 
tide moves in. It is not until the tide begins to move back out 
that we can tell how high it was. I am extraordinarily 
optimistic moving forward, having spent time both with the 
Americans, with the Coalition people, and with the Iraqis that 
these are a people who will not fail, they will not allow it to 
fail, their culture will not allow the terrorists to succeed. 
And I think if we sit here 1 year from today, we will be very 
pleased and maybe even surprised at how much progress will have 
been made. Thank you, sir.
    [The prepared statement of Mr. Galen follows:]

    [GRAPHIC] [TIFF OMITTED] T6993.063
    
    [GRAPHIC] [TIFF OMITTED] T6993.064
    
    [GRAPHIC] [TIFF OMITTED] T6993.065
    
    [GRAPHIC] [TIFF OMITTED] T6993.066
    
    [GRAPHIC] [TIFF OMITTED] T6993.067
    
    [GRAPHIC] [TIFF OMITTED] T6993.068
    
    [GRAPHIC] [TIFF OMITTED] T6993.069
    
    [GRAPHIC] [TIFF OMITTED] T6993.070
    
    [GRAPHIC] [TIFF OMITTED] T6993.071
    
    Mr. Shays. I would love you, when I come back, to explain 
to me, you say, ``their culture will not allow them to fail,'' 
I would love you to talk more about that.
    Ms. Pletka.
    Ms. Pletka. Thank you, Mr. Chairman. I am grateful for 
having been invited today. I am going to do my best to stay 
under 5 minutes. I think everybody knows the six questions by 
heart by now since we have all been through them.
    I do want to digress for a second. I was really happy to 
hear you, Mr. Galen, saying really hopeful, really positive 
things, and recognizing some of the interesting parallels with 
our previous experiences during World War II. If you go back 
and you look at some of the coverage in the first 5 and even 10 
years after World War II, you see a lot of echoes of the kind 
of criticism you see right now of the United States in Germany 
and Japan. There is a famous series in Life Magazine from 1947 
by John Duspasov which I commend to you because it has pretty 
much every single complaint that you have heard here only you 
have to substitute----
    Mr. Shays. Is one of them a headline that says ``Truman 
Fails?''
    Ms. Pletka. It is remarkable and I think it is important 
that we have some historical perspective. Rome was not built in 
a day. Democracy is a huge challenge. We have had more than 200 
years of practice and we do not always get it perfect. I think 
the Iraqis have done pretty well. And the other thing is that 
it is enormously tempting to sit in Washington and dump on 
people in Baghdad, and I am going to do that in just a moment. 
But before I do that, I want to recognize that they are in an 
enormously challenging situation. And even for those who make 
mistakes that we perceive and criticize, they are serving their 
country and they deserve great recognition for that.
    And now, now that I have said something positive. We have 
made a lot of mistakes. Probably the most fatal mistake that we 
made was in not understanding that liberation means liberation. 
When you live under someone like Saddam Hussein you want to be 
liberated not in order to be turned over to Jerry Bremer. I 
think that a lot of Iraqis, and I agree with them, resent that, 
and rightly so. In our failure to understand that, we have 
frittered away a lot of the political capital that I think we 
earned in deposing a horrible dictator.
    And if you look at the Interim Government that was just 
formed in Iraq to which we will hand sovereignty on June 30, I 
ask myself how it is in any way different from a government 
that would have been formed more than a year ago, indeed, a day 
after the statue of Saddam Hussein fell in the central square. 
It is governed by an exile leader with close ties to the United 
States and not that much of a constituency within the country, 
which is a familiar criticism but it was made of others, and I 
do wonder why we needed to wait a year to find him.
    We have lost credibility in other ways as well. The CPA, 
the Coalition Provisional Authority, has reversed itself on key 
decisions, such as de-Baathification; it has abandoned the 
Kurds to the political fates recently; the CPA has announced 
that we are against Baath terrorists, but then made deals with 
them in Fallujah; it authorized the indictment of Muqtada al 
Sadr as a murder, but then made deals with him too. I think 
that in these reversals, some of which we can debate about, we 
have signaled weakness. And terrorists have taken advantage of 
those weaknesses.
    And that brings me to the question of the security 
environment. It is safe to say, and many people have, that 
there are a lot of factors that caused the deterioration in the 
security environment. But I think that one of our key mistakes, 
and one that we continue to make, was the failure of military 
authorities to work with and to trust Iraqis. And you could 
actually see that even during the period of the invasion when 
we did not have Iraqis with our military troops who could have, 
in fact, been helpful. We have very little experience in 
dealing with Iraq and we could have relied far more heavily on 
the expertise of Iraqi allies. Instead, we have played a lone 
game. We have also allowed the borders to remain largely open, 
and that has allowed in all sorts of, shorthand, bad guys that 
are causing us and the Iraqis problems.
    On the question of political reform, it is really only fair 
to call Iraq a work in progress. The Coalition I do not think 
has done enough to build civil society, to empower political 
parties, or to educate Iraqis about the building blocks of 
democracy. And without those efforts, it is going to be very 
difficult for us to help them maintain a stable political 
system.
    Instead, what we have done is we have relied on known 
political quantities, sectarian and tribal leaders, and we have 
failed to understand that a lot of those divisions that we 
believe are real inside Iraq are much more relics of 30-40 
years under totalitarianism. If we allow the United Nations for 
the future to impose a proportional representation electoral 
system on Iraq, as the U.N. has in fact already announced 
earlier this month, I think we are going to further handicap 
all but a very few politically savvy Iraqis in Baghdad.
    I am going to wrap up quickly and just comment on the 
question of how we hand out assistance. As far as the economy 
is concerned, it is pretty easy for us to condemn the CPA, and 
the contractors, and AID, and the NGO's, but that really does 
them a terrible disservice. It is almost impossible to rebuild 
a country according to OSHA standards, which is what Congress 
demands. And with the kind of oversight, that you rightly 
demand, over appropriated funds----
    Mr. Shays. Surely you jest. We do not have OSHA in Iraq.
    Ms. Pletka. Seriously speaking, if you are willing to put 
things together with chewing gum and make them work, they will 
work for the necessary period when we are there. And so what if 
it all falls apart once we leave? That has been the attitude of 
many occupiers and it's irresponsible and we are not doing 
that. But that means it costs more and it takes longer. And the 
Iraqis are frustrated, and we understand that.
    Finally, I just want to address the question of hearts and 
minds. I think I have a slightly different take on it than some 
of your previous speakers. You asked us: ``Why did the 
Coalition and U.S. Government public diplomacy efforts fail to 
reach the hearts and minds of the Iraqi people?'' I think that 
misses the question of what public diplomacy really is about. 
People are not reached through hearts and minds campaigns. They 
are reached through deeds. They do not need advertising 
campaigns. And that has been one of the biggest flaws in our 
public diplomacy.
    America has done an unbelievable service for the Iraqi 
people. We need to remind everybody that what we did was a 
great thing, and to understand that if we keep doing the right 
thing, even in the face of great challenges, difficulty, and 
criticism, that 1 day Iraq will an invaluable ally to us. And 
that is really what winning hearts and minds is about. Thank 
you, sir.
    [The prepared statement of Ms. Pletka follows:]

    [GRAPHIC] [TIFF OMITTED] T6993.072
    
    [GRAPHIC] [TIFF OMITTED] T6993.073
    
    Mr. Shays. Thank you all three for your really excellent 
statements. I am going to ask some questions and then I am 
going to invite my staff to ask some questions as well. I do 
not want to forget about Fallujah, but I would like to ask 
first what you all agreed with--in the first and second panel, 
tell me what you reacted to that you agreed strongly to, and 
what you might have disagreed with. Let us take the disagreed 
first. In the first panel the Iraqi Representative, in the next 
panel, what was said that you thought I do not buy it, I do not 
agree, I think they are wrong?
    Dr. Shehata. Well, what struck me, sir, was what we heard 
in the previous panel, actually, panel II, about the sufficient 
force presence in Iraq or the day after, as it were, and then 
the importance of looting. I guess I could not disagree more 
with those issues.
    Mr. Shays. Yes.
    Mr. Galen. Sir, the point on which I would have disagreed 
with Ambassador Al-Rahim was on the issue of communications, 
which, as it happened, was my job, although not internal to 
Iraq.
    Mr. Shays. Let me be clear. You were not in charge of the 
stations and all that. But this is your expertise.
    Mr. Galen. Yes. The fact is that we did not do a good job 
in setting up what became Al-Iraqiya, which is to say we asked 
an engineering firm to be a creative company and it did not 
work and we should not be surprised at that. But we did an 
enormous amount of work in getting word out to Iraqis as to 
what was going on to the best of our ability. Let me take just 
2 seconds to explain this. When I first got there in early 
December, when we had the briefings with the Iraqi press corps, 
which in the beginning we did separately, we finally got smart 
and put them together with the Western press, the Iraqi 
reporters were remarkably unsophisticated and they would not 
ask why is there no electricity in Basra today. They would ask 
why is that army vehicle parked at the end of my block. There 
was just a lack of sophistication that over time they got much 
better at, with our help, by the way, especially General 
Kimmett, who, as the military briefer, spent an enormous amount 
of time, and still spends an enormous amount of time, one-on-
one, one-on-two, one-on-three with Iraqi reporters helping them 
ask tough questions. So the notion that we completely failed in 
driving the message out into the Iraqi society I think is 
incorrect, within the bounds of the ability to physically move 
around, which was difficult.
    Mr. Shays. Before you move on. It is true, though, that we 
contracted with an engineering firm and so we lost a whole 7 
months, did we not?
    Mr. Galen. But that was not the only mechanism. The 
Ambassador was correct. The rumor activity in Iraq is fairly 
remarkable. Every Thursday--I would get a report from the Iraqi 
analyst who looked at the local media everyday--on Thursday 
they would report the rumors that they had picked up. Now some 
of them they made up just because they had to have something to 
say. But over time, the rumors fell into one of three 
categories: a) It was the Americans punishing us. I remember 
specifically the 24-hour blackout. The rumor was that the 
Americans were punishing the Iraqis because power went out in 
Cleveland and that was the punishment. So either the Americans 
are punishing us for whatever, or it is the Mossad, the Israeli 
Intelligence Service, or both.
    But the rumor mill is very powerful. And that is a cultural 
underpinning not just in Iraq, but throughout the region. It is 
very difficult to overcome that. And, frankly, it is not so 
different here. Remember 2 years ago when we had those two guys 
running around shooting people out of the trunk of their car, 
we were all looking for a white panel truck because that was 
what they were supposed to have been driving. That was the 
rumor that was running around rampant. In fact, it turned out 
to be a burgundy sedan.
    Ms. Pletka. I was not here for Ambassador Rahim's 
presentation. But since she is a very old friend, I am not 
going to disagree with her publicly even had I heard what she--
--
    Mr. Shays. Let me just tell you one thing she said. She 
said we should never have been occupiers; never. And the 
implication was that we could do in May or June, I think she 
said June, what we are doing 1 year later.
    Ms. Pletka. I said something very similar in my statement, 
and I agree with her entirely. In fact, if we were willing to 
put in an exile government and a bunch of other exiles----
    Mr. Shays. I want you to start over again. You spoke so 
quickly. Slow down.
    Ms. Pletka. I am sorry. It is because I have said it so 
many times. If we were willing to put exiles in power, in the 
position of Prime Minister, as we did with Ayad Allawi, and had 
proposed to do with Adnan Pachachi as President and 
subsequently did not, then I think we could have done it a year 
ago. And we could have used the political capital that we had 
gained in toppling Saddam to give credibility to that 
transition in Iraq. Instead, we used up the political capital 
in order to give credibility to the Coalition Provisional 
Authority and they spent more than a year frittering it away. I 
think that it is important to understand that it does not 
matter how much good will any person has toward your liberator 
if, in fact, that liberator becomes an occupier, he will 
eventually be disliked.
    May I ask your indulgence. This issue of looting has come 
up again and again. I have a very contrarian view about this. 
It is desperately unfair for us to sit here and criticize 
American troops for failing to take police action to protect 
things in Iraq. We need to remember what was stolen. You 
commented very accurately about things like window frames, 
panes of glass being stolen, and we all remember pictures of 
people lugging things like mattresses.
    Mr. Shays. There was nothing left in the building. Nothing.
    Ms. Pletka. Right. People who steal mattresses are not out 
joy riding. People who steal mattresses steal them because they 
do not have them, because they have not had anything new or 
anything decent in years on end. And to have asked American 
troops to take guns to those people and threaten them and 
possibly injure them or kill them would have been quite a 
challenge, and I think we would have actually lost more hearts 
and minds in so doing than in not doing it. So I really think 
that this requires a little bit more of a nuanced look.
    Mr. Shays. Yes.
    Dr. Shehata. Could I say something about that, sir?
    Mr. Shays. Sure.
    Dr. Shehata. I really could not disagree more. It is not a 
question of U.S. soldiers shooting Iraqi civilians running out 
of hospitals with medical equipment or mattresses. Clearly, if 
there were one, more troops present at the time, that is the 
day after, and two, if they would have had the orders to stop 
the looting, to stand guard in front of certain places other 
than the oil ministries, then this would have been a deterrent. 
That is the way these things work. It does not work otherwise. 
You do not have to shoot every single person who has the desire 
to loot. You only have to create the desire on their part, 
change the incentive system, for them not to be able to loot. 
So I disagree completely.
    Mr. Shays. I would say, Ms. Pletka, I do believe that if 
there were one or two instances where the looting was not 
successful, I do not think it would have necessarily happened 
elsewhere, but I understand your perspective. At the time, I 
did not want to see any American shoot any Iraqi. But what is 
interesting is we had the State Department warn us this would 
happen. They said iraq is going to be no different than Watts, 
and they went through. They were oppressed people, much like 
folks in Watts felt they were. But there was a warning. We were 
told this would happen.
    I am happy, Mr. Galen, if you want to make a comment.
    Mr. Galen. I would like to just look at it from the other 
side, because I wrote a column about----
    Mr. Shays. Which side? We have heard two sides. Do you have 
a third side?
    Mr. Galen. The other side from your side. And that is, 
imagine the reaction in the United States had we lost a soldier 
or 5 soldiers or 10 soldiers protecting mattresses or window 
frames. I think there was a real issue of, on the one hand, 
letting this three decades of pent up whatever to blow off, 
which some people took advantage of, obviously nobody needed to 
steal an icon from a museum, that is clearly just criminal 
behavior. But I think that the notion of having a pitched gun 
battle involving American soldiers, which was fairly likely 
given the number of AK-47s, as you know, that exist on the 
street in any city in Iraq, protecting mattresses and window 
frames. I think if we go back in time and think that through, I 
think we would see that it may have been an insolvable 
situation, but I am not sure that we made the wrong decision.
    Mr. Shays. What I wonder, though, is are we mixing 
cultures? Different people react differently to certain events. 
I was led to believe that in Iraqi culture a sense of security 
and protection is viewed differently than we would view it.
    Mr. Galen. That gets us into that area you wanted to 
discuss. I was in Kuwait just a year ago at the behest of the 
Kuwaiti government to watch their elections, their brand of 
democracy, which is only called democracy because they choose 
to call it that. There are 2.1 million inhabitants and 130,000 
get to vote. But that is what they do and they seem to be OK 
with it.
    But more to the point here, I was in a discussion with a 
university professor who was adamant about the fact that 
stability was more important than freedom, than democracy. That 
the notion of having a stable society under a Saddam was better 
for the Iraqi people, in his view, than going through the 
turmoil of overthrowing Saddam and all the things that you and 
your panels have discussed here today. That is I suppose a 
legitimate viewpoint from his point of view. I do not think it 
is from our point of view because we have fought wars over the 
centuries to overthrow stable but unfair governments here and 
abroad. But that is part of what we are discussing here today. 
Is stability more important than having a society go through 
the throes of instability to get themselves to an end state 
that over the next, not 3 months or 14 months as it has been, 
but over the next 14 or 1,400 years will have proved to be the 
right direction taken.
    Mr. Shays. Any other comment on this issue?
    Dr. Shehata. Well, I would just say that it is not an 
either/or question. Also, it is not a question of stability. It 
is not about the longevity of a regime and its brutality. It is 
about maintaining basic security. Security is a precondition 
for freedom. If I am supposedly free to voice my opinions but I 
do not have security, then that is worthless. So it is not an 
either/or situation. It is simply that security is a 
precondition for freedom.
    Mr. Shays. Let me ask you, you wanted to talk about 
Fallujah, makes some comments? I think you had some questions 
on that. I want to just tell you a reaction I had just to start 
this process off. First off, with al Sadr, I was told by Mr. 
Bremer that a year ago he wanted to deal with this guy when he 
had 300, and it did not happen, and then he had thousands. I 
had this conflicted view. In one sense, I wanted--talking about 
security--I wanted to have our folks get this guy and end his 
ability to influence. But I kind of rejoiced in a way that you 
all of a sudden saw the Iraqi Council come in to play, the 
Kurds were coming in, and they were trying to solve a problem. 
They did not solve it the way we wanted it necessarily, I am 
not sure quite how we wanted it, but they put restraints on us, 
and in the end he is still there. But I felt like there was a 
little bit of Iraqi pride that they were given an opportunity 
to try to deal with this. And so, I think I was left with the 
feeling that, in the end, was a good thing.
    So that is my reaction. I want to know what your reaction 
is.
    Dr. Shehata. Well with regard to Muqtada al Sadr, I am in 
complete agreement with you. I think we saw clearly other 
Shiite clergy as well as other individuals, prominent Iraqis 
try to intervene and try to calm down the situation. I think it 
was a mistake to go after Muqtada al Sadr in the way that the 
CPA did. I think the reason that this got to this terrible 
point was because Muqtada al Sadr was completely, or at least 
he felt, he was actually, excluded from the political process. 
But what we have seen, and as a good general rule, is the fact 
that inclusion generally produces moderation. So, for example, 
Muqtada al Sadr quite recently said, just several days ago, 
that he accepts the legitimacy of the Interim Government as 
long as they work for the ending of the U.S. occupation and 
elections. I think that is a very good thing. I think if you 
exclude political players, you radicalize them. And that is 
dangerous. So what has to be done is inclusion even of those 
people who we might disagree with fundamentally.
    Mr. Shays. Mr. Galen, given your background in the media, 
were you the one who decided to shut down Sadr's paper?
    Mr. Galen. No, sir, I was not.
    Mr. Shays. Were you consulted?
    Mr. Galen. No, sir, I was not. Let me speak to that just 
for a second. That al Sadr saying that he accepts this 
government has all the import of me saying that I accept this 
government. The fact is that al Sadr has been marginalized by 
his own activities and by the other Shiites who we were afraid 
were no more moderate but in fact have stepped up to the plate, 
to use an American phrase, and have begun to assume the mantle 
of power and the mantle of democracy and the mantle of 
diplomacy.
    One of the reasons that al Sadr has been marginalized is 
because one, we killed a lot of his militia, which is a good 
thing; and two, he did not gain the support of the large number 
of Iraqis. I think you can make the conclusion that when he 
went into Najaf and the area down there that he expected there 
to be a huge outpouring of support for his revolt. And, 
frankly, that did not happen. And so, in the end, it proved 
that, not what my friend to my right is saying, that we should 
have included him in the first place, but that if you do take 
radical action when others are trying to build a democracy, 
that you will be marginalized.
    Going back to your specific question. I asked the question 
when we shut down al Sadr's newspaper in Baghdad and then 
arrested his lieutenant, I was in Riyadh at the time, when I 
got back I asked, who was in the meeting, putting aside the 
military part, because I do not know about that, but who was in 
the meeting, I asked, that said these are the potential 
outcomes from an information standpoint and a communication 
standpoint, and based upon those potential outcomes, what does 
the CPA and CJTF-7, the military coalition's response going to 
be? And I asked that of enough people because I wanted to make 
sure that I had the right answer. And the answer was, that 
meeting never happened.
    Mr. Shays. In other words, I want to be clear, a decision 
to close down the paper, and you are asking did anyone think of 
what the consequences might be of closing down that paper. Is 
that correct?
    Mr. Galen. Well, I assume somebody did, but if they did 
they did not share it beyond my guess is the three star and 
Ambassador rank. That was a problem. Not that we would have 
changed the direction, not that we could have influenced it at 
all, but I think it was a failing on the part--you are going to 
ask later what is the greatest failing, and in my mind the 
greatest failing is having a pro council. It runs against my 
conservative grain to have centralized planning of any nature. 
And I think this is the sort of situation you get yourself into 
when you begin to close down the decision process to one or two 
people. And then when events spin out of control you find 
yourself unable to respond quickly enough because the response 
mechanisms are not in place.
    Mr. Shays. Ms. Pletka, do you want to respond?
    Ms. Pletka. I do not quite know what to respond to. I agree 
with a lot of what Mr. Galen said. I think that the 
consequences of shutting down the paper were manifest. There 
was a decision made to take on Muqtada al Sadr. The reason was, 
as far as the paper is concerned, that he was using it to 
incite violence against American and allied forces and against 
Iraqis with whom he disagreed. The idea that somehow a person 
who is excluded from a political process has somehow a right or 
that it would be natural for them to turn to violence is really 
I think unacceptable. There are plenty of people who are 
excluded from the political process in lots of places and they 
do not generally kill their opponents as a response. So I think 
we need to recognize that Muqtada al Sadr is someone who 
embraces terrorism, someone who embraces murder as a political 
tool. He is not a part of the political process and he was not 
driven to it because he was excluded. We have a long record of 
his speeches saying terrible things, exhorting people to 
violence long before he was ``excluded.''
    Mr. Shays. It would be interesting and the thinking now--my 
general reaction was a pretty big mistake to get rid of the 
paper because, in essence, it gives it more credibility. But 
the proof would be is there a paper now that has replaced it. 
In other words, have we made that paper more significant, or 
does it simply not exist anymore?
    Ms. Pletka. It no longer exists.
    Mr. Galen. It no longer exists. And I do not disagree at 
all with what you were saying. I was not suggesting that we 
should not have shut down the paper.
    Ms. Pletka. Oh, no, no.
    Mr. Galen. But your point, sir, I think is correct, that 
the proof is that no paper, to my knowledge, has arrived to 
take its place. Now you could make the case that people are 
afraid to start such a paper. But there are a lot of 
newspapers, they do not all publish every day, but there is no 
shortage of public discourse, at least in Baghdad, in terms of 
varying points of view. We do draw the line even in our country 
at shouting fire in a movie theater. That does not fall under 
free speech.
    Mr. Shays. Great observation. I will let the staff ask a 
question here. Our subcommittee is doing hearings on the whole 
issue of oil for food and the outrage, frankly, of some of our 
allies who were involved in allowing Saddam to get $10 billion 
out of this process. But what I love is that this story was 
outed about the U.N. from the Iraqi press. Our people were not 
covering it well, the Europeans were not covering it well, and 
the Iraqi press, and even if we determine it was Chalabi and 
whatever we think about him, the bottom line is the press got 
the story, the press ran with the story, they pointed out 200 
names, and the rest is history. So I think that is kind of an 
encouraging thing that you actually saw this initiative.
    Mr. Galen. And something, sir, that we did not see 7 or 8 
months ago. They would not have had the sophistication, they 
would not have understood that they were permitted to do that.
    Mr. Shays. So you leaked this story?
    Mr. Galen. No, no. No. I was in the same briefing as you 
were, sir. But the fact is that it is another one of those 
hopeful signs that a free Iraqi press, not an al Sadr press, 
not a medium that is inciting to violence, but the notion after 
three decades--look, independent thought was not a positive 
idea in Iraq for three decades. It got you at least some body 
parts cutoff or got you killed. And that is one of the things I 
was discussing earlier, that as we moved through time a more 
sophisticated level of activity on the part of the Iraqi press 
led to that whole notion of the oil for food program story, 
which, in fact, led to a requirement that every governate go 
through all of its paper and preserve all the documents dealing 
with oil for food, which probably would not have happened 
without, as you say, the Iraqi press bringing it up.
    Mr. Halloran. Thank you. We have read the section of your 
testimony on Fallujah. I want to center some questions for all 
of you on that. It is portrayed as an instance of heavy-handed 
military tactics in response to a provocative incident which 
then kind of galvanized Iraqi political support and political 
debate about a response, which then prompted a U.S. tactical 
response in terms of how to deal with the security situation on 
the ground, which to some became a whole kind of strategic 
shift on how we deal with security in Iraq--that it is an Iraqi 
problem, not an American issue or problem. That politically, 
when the United States decides security is our No. 1 mission, a 
lot of people with a lot of different motives suddenly make it 
their No. 1 mission to prevent that, whereas if it is an Iraqi 
priority or Iraqi mission, a lot of Iraqis with the same 
motives have an interest in making that mission succeed.
    So I want to ask all three of you, if Fallujah was a 
paradigm shift, as it were, not in its provocation but in its 
response and that perception of security?
    Dr. Shehata. I am not sure I understood the question, 
actually, I am afraid to say.
    Ms. Pletka. I would be happy to answer it and then 
everybody can disagree with me. I think Fallujah was a paradigm 
shift and I think it was a terrible one, actually. I know that 
people disagree with that. We made a decision to confront a 
problem that we had with insurgents in Fallujah. This was not 
just Baathists and Saddam loyalists heavily armed, but also 
outside terrorists. And we went in. We were I think moderately 
heavy-handed. We did not bring enough troops to bear in the 
beginning, but we added additional troops. At a certain moment, 
we decided that we should embrace a different model, which is 
now being called the Fallujah model. We brought in briefly a 
former general in the Revolutionary Guards, General Jasamsela, 
another hideous mistake on our part, to head up an Iraqi 
brigade.
    Yes, everything is quiet right now. But what kind of a 
compromise has brought that quiet? The Washington Post had a 
very interesting article about this last week that made very 
clear that once you go into Fallujah, the terrorists and the 
Baathists are in power. Now that means that for the moment they 
have decided to remain quiet. What will happen when they decide 
they no longer wish to be quiet? Will we have to go back in? 
Will there be another compromise? And what kind of compromises 
should we make with local warlords, with terrorists, with 
Baathist recidivists? I am not sure. But we are opposed to 
making those kind of local compromises from place to place in 
Afghanistan. And I think we should be opposed to doing it in 
Iraq. Either you are someone who is opposed to the government, 
you are a terrorist and you must be gotten rid of, or you are 
not. But we need to decide which is the model that works. And 
for me, we are just delaying the pain by going with this latter 
Fallujah model.
    Mr. Halloran. Dr. Shehata.
    Dr. Shehata. Sure. I think I understand the question now. I 
think, clearly, from the perspective of the U.S. military and 
how we deal with these kinds of things, Fallujah probably did 
signify a paradigm shift. At the same time, we are getting 
close to the handover of sovereignty, so this might be, 
hopefully will be, a mute question.
    I disagree significantly with Ms. Pletka that it was a 
moderate use of force. Clearly, in the English press as well as 
in the Arabic press, the number of civilian casualties was well 
over 600. But it is not important, and this is the key point 
that I want to make, how any of us view Fallujah. What is 
important is how the Iraqi public viewed Fallujah. And what I 
am saying is simply that Fallujah was a crucial moment. It was 
at that moment after Fallujah that I started telling my 
students that I was afraid that the war had been lost. Because 
everyone in Iraq reacted negatively to the way the United 
States handled it. For them, it was four contractors were 
killed and, as a result, the disproportionate use of force, a 
whole city was under siege, a city of 300,000, and over 600 
people, many of them civilians actually, and the pictures show 
that, killed as a response. So that clearly did a tremendous 
amount of damage for how many Iraqis view us and view the 
occupation.
    I do not know and I am not qualified to say what the 
military reaction should have been. But I think it is clear 
that it should have been significantly different than that. And 
you are right, Iraqis, and Iraqis who think more closely to Ms. 
Pletka and all of us here, would probably have an interest in 
dealing with the situation in some way. And I think that any 
imaginable way that they would have come up, that is, Iraqis of 
authority, would have been better than the way that Fallujah 
was handled.
    Mr. Galen. It was not just a matter of four contractors 
being killed. The manner in which they were killed, the manner 
in which their bodies were mangled afterwards, and the fact 
that what was left of their bodies was hung from a bridge for 
all to see was the issue at hand. And I will tell you, I do not 
know how angry the Iraqis were afterwards, but as far as the 
Coalition civilians and the Coalition military were concerned, 
an appropriate response, I will speak for myself, not for 
anyone else, would have been to flatten Fallujah, make it into 
a parking lot, we would have known it was over when the paint 
in the lines dried. That is how angry everybody was about the 
horror that had happened. And not just the horror that it 
happened, Mr. Chairman, but the fact that there was so little 
reaction against that kind of senseless brutality. These were 
guys that were protecting a food convoy. They were not out 
there gunning down women and children in the street, they were 
protecting a food convoy. And it was the lack of any kind of 
remorse, other than the very narrow statements that desecrating 
a dead body is anti-Islamic, and I am not Islamic so I can only 
take that as read. But that I think was the part that 
infuriated more people.
    This happened, let me just say from a tactical standpoint, 
this happened to occur, to use an American basketball phrase, 
during a transition. The 82nd Airborne was moving out, there 
headquarters had been up in Ramadi, and the 1st Marine 
Expeditionary Force was moving in and they were setting up 
headquarters much closer to Fallujah. There had been some 
disagreement, you may remember, between the marines and the 
airborne and the army about how they had handled things in the 
Western provinces and there was some reason to suspect that 
this may have been the work of agents provocateur just to see 
what we had, what do the new guys have. The marines, for their 
part, although this is lost in the reporting, the marines held 
off for a long time. It was not like the four contractors were 
killed and that night we started bombing. The fact is that the 
marines held off for many days, maybe a week or so, before they 
decided on what the response would be. And their reasoning was 
they were trying to get the best possible intelligence so that 
when they did go in and kill people, which they were going to 
do, that they could kill bad guys with some reasonable 
expectation that they were hitting the right targets.
    So I disagree with Dr. Shehata that this was an unmeasured 
response. It was a very measured response to an act of 
brutality that almost belies description.
    Mr. Shays. Thank you.
    Dr. Shehata. Can I just say one small thing about the 
question of Fallujah.
    Mr. Shays. Sure. This is a very interesting panel. I like 
the disagreement, and I agree with both of you. Mr. Greenspan 
speaks. [Laughter.]
    Dr. Shehata. Certainly, what happened to the four 
contractors was horrific and I could not get myself to actually 
watch the footage on television. But I think that we have to 
understand Fallujah actually in its historical context. So, for 
example, if we go back to immediately after the end of the war, 
in April 2003, there was an incident which really set us on the 
wrong track in Fallujah to begin with, which was the American 
soldiers who had taken over the school and there was a 
demonstration, from all press accounts a peaceful demonstration 
of residents of Fallujah outside in which 13 Fallujans were 
killed. So, clearly, from the very beginning there is a context 
here that differentiates Fallujah from other parts of the 
country as well and it has to be understood if we are to 
understand the mutilation of the bodies, which cannot be in any 
sense rationalized. And then before the four contractors were 
killed----
    Mr. Shays. That statement confuses me. Because you say you 
have to put in context--I cannot put it in context with 
anything. I can put in it context but it is hard for me to.
    Dr. Shehata. Sure. What I am saying is not the way that 
they were killed but the anti-American feeling in Fallujah, 
putting that in context. Not to justify it but just so that we 
can understand it. So in April 2003, there were the 13 
civilians killed. And then before the incident with the four 
contractors, there was a search operation in Fallujah a week or 
so before which, it was not intended to end this way, but 
resulted in the killing of 15 Fallujans. So if we are to 
understand the anti-American feeling in Fallujah, we have to 
understand that.
    But there was another larger point about what has been 
called the Sunni Triangle that I think needs to be made that 
possibly would help steer us in a different direction with 
regard to the Sunni community. No one understood, it seems, 
that the people who had the most to lose and therefore we would 
have an interest making them buy-in to the new Iraq were the 
Sunnis. I mean, of course, the Shiites have an interest in a 
post-Saddam Iraq, and the Kurds it is not clear and so on, 
depending on what they get, but the losers in this game were 
going to be the Sunnis. And therefore, we should have gone out 
of our way to make sure they do not exit the process by 
including their leaders, by using money as ammunition in Sunni 
areas and so forth just from a strategic point of view.
    Ms. Pletka. I am sorry. May I just give one quick word. 
First, I agree with you, Mr. Chairman, there is no context; 13 
deaths, 20 deaths, 68 deaths, 500 deaths do not really excuse 
the mutilation of four civilians. So I do not think there is 
much context for that.
    But as far as the Sunni Triangle is concerned, I was with 
General Patreaus in September of last year and actually 
objected a little bit to his strong outreach to the Sunni 
community. To suggest that the forces that were in place in the 
Sunni Triangle were not reaching out to moderate community 
leaders, to tribal leaders, were not spending money wherever 
possible does them a terrible injustice. To the contrary, he 
used an expression which I disagreed with strongly. He said, 
``There can be no losers here.'' For my part, I thought there 
should be losers there. But that said, he bent over backward, 
as did everybody subordinate to him, to try and find Sunni 
leaders and Sunni community members who could be helped, who 
could be made part of the process, and who could be empowered 
as part of the new Iraq.
    Mr. Shays. Thank you. Yes, sir?
    Mr. Galen. Mr. Chairman, could I just make one last point 
with respect to Fallujah?
    Mr. Shays. Sure.
    Mr. Galen. This did not get any publicity so I am not sure 
anybody knows that it was going on. There was an ongoing effort 
that was called the Fallujah Project and it included, oh, I do 
not know, I would say 20 fairly senior people and then me 
around the CPA and CJTF-7 and we were specifically charged with 
looking for projects in Fallujah to which we could bring to 
bear civil affairs, cultural affairs, building. There was a big 
argument should we build a hospital or should we build another 
school. But there was an ongoing and real effort to use 
positive influence of money and of civil affairs projects in 
Fallujah. We got shot at once when we were over there, because 
we had told them we were going to come and meet with them, and 
we never went back.
    Mr. Shays. Interesting. We are going to conclude. I do want 
to know what you think is the worst thing we did, the best 
thing we did, and what is the most important thing we need to 
do in the months to come. Also, and I wish I had asked the 
others, and so I am not going to be able to do some comparison 
here, but there are 150 tribes, some obviously more important 
than others, there are religious leaders. It is my sense that 
we were reaching out to the religious instead of the tribes. 
Should we have been reaching out to the tribes? If you have no 
opinion, that is OK too.
    Dr. Shehata, let me start with you.
    Dr. Shehata. Sure. Certainly, there are going to be losers, 
and those are the Saddamists. But I think you are right that we 
did not reach out enough to tribal leaders. But to be fair, up 
until quite recently we did not reach out really to Grand 
Ayatoliah Ali Al-Sistani. He was the bad guy, the spoiler. But 
nevertheless, I agree with you completely, sir, that tribes 
should have been focused on.
    In terms of the mistakes, I think insufficient troops the 
day after, allowing the looting to spread, disbanding the army 
and police, the blanket de-Baathification, the inability to get 
basic services, public services, electricity, up and running 
again.
    Mr. Shays. If you give me a long list of mistakes, you have 
to give me a long list of successes.
    Dr. Shehata. OK. I think the handover on June 30 is 
hopefully going to be a success, and it seems like, as I 
mentioned before, and I am thankful that this is the case, that 
there is buy-in on the part of many Iraqis. Certainly, 
including Lakhdar Brahimi and the United Nations I think was a 
wonderful thing and hopefully that will continue. And, 
hopefully, we will see more success with the deliverables 
because that is what really, as Ms. Pletka said, I agree with 
her completely, that is what determines public opinion in 
hearts and minds; that is, product, performance, delivery. So 
hopefully security and electricity will see some improvements 
in the days to come.
    Mr. Shays. Was not another success, an obvious one, the 
monetary policy, being able to change the currency. There was 
no collapse, there were no epidemics. So there were a lot of 
things.
    Dr. Shehata. Sure. There were all kinds of things that we 
thought might happen that did not happen, the million refugees, 
for example.
    Mr. Shays. But they did not happen in part, though, because 
of what we did.
    Dr. Shehata. I think that is true. And I think that the 
currency conversion and the strength of the Iraqi dinar 
actually is another thing that has been surprising. So I put 
those among--I mean, there are all kinds of accomplishments and 
I go through some of them in my testimony, including some of 
the waterwork that has been done by USAID, including the 
telecommunications which I mentioned, and so on.
    Mr. Shays. OK. Thank you.
    Those two questions.
    Mr. Galen. First on the tribal issue, sir, I think if you 
have the opportunity you might want to bring Ambassador 
Schlicher back in just for a chat. That was his brief. He was 
responsible for outreach to the governate. And my understanding 
from him is they spent a good deal of time dealing with tribal 
leaders, not from Baghdad but actually from where it counted, 
out in the governate. So you may want to chat with him about 
that.
    Mr. Shays. Do you think some of the effort to provide these 
local government bodies was through the tribal process?
    Mr. Galen. Yes. Well they were brought into the process at 
the governate level, at what we would call the county level. 
That was Ambassador Schlicher's principal role so he might be 
the right one to talk to about that.
    Mr. Shays. Best and worst?
    Mr. Galen. The worst, as I said, is the centralized 
decisionmaking process. I am not sure there was a good way out 
of that but it certainly did lead to decisions that had to be 
made and then had to get unmade because, as we all know, part 
of the way of successful decisionmaking is having strong 
opposing views that are fully aired and then letting the 
decisionmaker choose from those. But when you only have one 
person and a very small cadre of people around him, as we did 
with Ambassador Bremer, who, by the way, is brilliant and to 
the extent that there has been any success, and I think there 
has been great success, he gets all the credit. If he is going 
to get any of the blame, he has to get the credit because he 
literally works 20 hours a day, 7 days a week. But I think from 
a policy standpoint having a pro council was a mistake, it did 
not work with General Gardner, and I am not sure it was as 
successful as it might have been.
    Mr. Shays. Best?
    Mr. Galen. The best thing, clearly, was the decision last 
November to set a date certain, which happens to be June 30, 
for the handover.
    Mr. Shays. Which was criticized pretty strongly by a lot of 
folks.
    Mr. Galen. Well, again, that goes back to my earlier 
statement, sir, is you do not know how high the tide is going 
to get until it goes back out again. But I think as we move 
through time we are going to find that rather than having 
uncertainty and having new roadblocks and having people like 
Mr. Brahimi and the United Nations decide one thing while we 
are deciding something else and the French deciding something 
else again about what constitutes a time when we could actually 
hand over sovereignty, setting a hard date certain and forcing 
everybody--I mean everybody in the palace in the Green Zone has 
been absolutely focused on that June 30 deadline ever since 
November 15th.
    Mr. Shays. OK. And you left out one thing. Biggest need in 
the months to come?
    Mr. Galen. I think the biggest need is for everybody to 
step back and give this thing a chance to ripen. This business 
of on an hourly basis deciding on whether we are succeeding or 
failing is destructive beyond any measure. You cannot do it 
that way. We have to let the situation ripen. We have to let 
the new government, the Interim Government actually get their 
feet on the ground to deal with the ins and outs. The 
Transitional Administrative Law is a brilliant document and if 
they use that as at least a guideline for how they build the 
future of Iraq, it is going to have a huge impact moving 
forward through the region.
    Mr. Shays. That is a strong word, a ``brilliant'' document. 
I am happy to hear you feel that way.
    Mr. Galen. Happily, I got to sit in on some of the 
negotiations and it was really interesting to watch.
    Mr. Shays. Ms. Pletka.
    Ms. Pletka. Tribes, yes? It is very important to understand 
how Iraq is made up and that it is in many ways a tribal 
society, it is a sectarian society, but it is also a very 
urbanized, highly educated society. We should reach out to 
tribal leaders but we should not have a cartoonish view of how 
Iraqis think and feel. Under a dictator when there is no 
political freedom, the natural tendency is to turn to your 
family members, your village leaders, your tribal leaders, and 
your co-religionists, to use a dreadful word, for political 
allies. But that is not a natural political or democratic 
order. Ideas are what should be what organizes the Iraqi 
people, whether it is, if I can start on an extreme, communism-
liberal democracy, different ideas about how to organize 
themselves politically, and that should not be based on who my 
family looks like, where I go to mosque, or what my great-
great-grandfather's last name was. So I think that is very 
important as we look forward.
    In terms of our successes and failures, one of our greatest 
failures, as I think has been made clear, is in our failure to 
trust the Iraqi people to govern themselves, to trust them to 
make the mistakes that they needed to make to learn how to be 
responsible leaders, to believe in them in the way that 
justified their liberation. And so that was a terrible mistake. 
And insofar as we continue to denigrate Iraqi leaders, usually 
anonymously in the press, I think that we do them a huge 
disservice.
    Our greatest successes are a reflection on the United 
States, and it sounds simplistic to say it, but it is that we 
believed that the liberation of 25 million people from tyranny 
was something important enough to sacrifice American lives, to 
fight for in the international community, and to stick with to 
this day even when people continue to snipe at us.
    The future. One of the greatest mistakes I think that we 
can make, and I alluded to this in my testimony, is if we allow 
the imposition of a system of proportional representation on 
Iraq for their election process which concentrates power in the 
center, in the hands of established political groups. We will 
exclude different regions, we will fail to vest all of the 
people of Iraq in the political process, and we risk creating a 
political system that brought us 50 governments in post-war 
Italy and I do not know how many governments but I know they 
did not work very well in Israel, the two places that have 
proportional representation systems. So I think that will be a 
huge mistake and we should be very vigilant as we move forward.
    Mr. Shays. Thank you all very much. I really have enjoyed 
this panel and I have enjoyed the hearing that we have had 
today. I have learned a lot. I was struck by--and I am 
reacting, Ms. Pletka, to your comment, because I was trying to 
sort out what I felt about Fallujah. Because I happen to agree, 
that if we could have acted the way we wanted, we would have 
taken the kind of action I think needed to happen. But I 
rejoiced in the fact that we were trusting Iraqis to kind of 
have their day. And even though I thought they made the wrong 
decision, I rejoiced in that we were starting to try to trust 
them and they were getting some confidence. So that is why I 
said I agreed with both sides. You by your last answer helped 
me realize that I did agree with both sides. Bad mistake, but 
we trusted them and that was a good thing. Thank you all very 
much. Is there any one last statement that needs to be put on 
the record? Sometimes that is usually the best. If there is 
not, this hearing is closed.
    [Whereupon, at 6:30 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T6993.074

[GRAPHIC] [TIFF OMITTED] T6993.075

[GRAPHIC] [TIFF OMITTED] T6993.076

[GRAPHIC] [TIFF OMITTED] T6993.077

[GRAPHIC] [TIFF OMITTED] T6993.078

[GRAPHIC] [TIFF OMITTED] T6993.079

[GRAPHIC] [TIFF OMITTED] T6993.080

[GRAPHIC] [TIFF OMITTED] T6993.081

                                 <all>

</pre></body></html>
